<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:28 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Cochran, Collins, Murkowski, 
Graham, Hoeven, Lankford, Feinstein, Tester, Udall, Merkley, 
and Coons.

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

STATEMENT OF HON. THOMAS P. BOSTICK, LIEUTENANT 
            GENERAL, COMMANDER


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order.
    This is the first hearing, not just of our subcommittee, 
but of the entire Appropriations Committee.
    How is that, Senator Feinstein? So we are the early birds.
    I want to say at the outset what a privilege it has been to 
work with the Senator from California over the last few years 
when she has been chairman and I have been the ranking member. 
Our seats have switched, but the relationship hasn't changed. 
And I look forward to treating her with at least as much 
courtesy as she has always treated me. I am going to see if I 
can outdo her, because it is a treat to work with somebody who 
is capable of making a decision, expressing herself well, and 
easy to work with.
    So, Senator Feinstein, I look forward to our continued good 
relationship.
    This morning, we are having a hearing to review the 
President's fiscal year 2016 funding request and budget 
justification for the U.S. Army Corps of Engineers and the 
Bureau of Reclamation, which is part of the Department of the 
Interior. Senator Feinstein and I will each have an opening 
statement, and then each Senator may have up to 5 minutes for a 
statement in the order in which they arrived.
    Senator Graham has let me know that he has a 3 o'clock 
hearing, so if the Senators don't mind, I will try to work him 
in before 3 o'clock, as a courtesy to him.
    We will then turn to the witnesses for their testimony. 
Each witness will have 5 minutes. We would appreciate you 
summarizing your testimony in that time. We will include their 
full statements in the record. Then Senators will be recognized 
for 5 minutes of questions in the order in which they arrived.
    I want to thank the witnesses for being here today, and 
thank Senator Feinstein for working with me on this.
    Our witnesses include Jo-Ellen Darcy, the Assistant 
Secretary of the Army for Civil Works. Welcome, Secretary 
Darcy.
    Estevan Lopez, Commissioner for the Bureau of Reclamation. 
Mr. Lopez, welcome.
    Jennifer Gimbel, Principal Deputy Assistant Secretary for 
Water and Science for the Department of Interior. That is a 
long title. Nice to see you.
    And Lieutenant General Thomas P. Bostick, Chief of 
Engineers for the U.S. Army Corps of Engineers. We welcome you.
    Governing is about setting priorities, and unfortunately, 
the President's budget request for these agencies shows a 
failure to do so, in my opinion.
    The overall budget proposes spending that exceeds the 
budget caps established by the Budget Control Act of 2011 by 
about $74 billion. One of the priorities the President often 
speaks about is our Nation's infrastructure. Yet despite all 
the proposed new spending and all that talk, this proposal cuts 
the Corps' budget by $751 million, or 14 percent below last 
year's actual spending level.
    This budget proposes cutting the Corps' funding to the 
actual level of spending in 2007. We are literally moving 
backward on an agency that is crucial to maintaining our 
country's infrastructure.
    The reason this is such a problem is that the U.S. Army 
Corps of Engineers touches the lives of almost every American. 
The Corps maintains our inland waterways. It deepens and keeps 
our ports open. It looks after many of our recreational waters 
and land. It manages the river levels to prevent flooding. Its 
dams provide emission-free, renewable, hydroelectric energy.
    All of these activities attract the intense interest of the 
American people and of their United States Senators.
    I can recall when I was a member of the Environment and 
Public Works Committee, after a flooding of the Missouri and 
Mississippi rivers 4 years ago, a whole room full of Senators 
showed up to ask for more money to deal with what went wrong 
and what went right on the disaster relief efforts. So there is 
a real interest in these proposals.
    The reality is that for all the Corps does, there are many 
things it could do better, and setting priorities in our 
spending is one way to better invest taxpayer dollars.
    An important example of the administration's failure to set 
priorities in my home State of Tennessee is the lack of funds 
in the President's budget request to restart replacement of 
Chickamauga Lock. Congress has done its job over the last 3 
years to move ahead promptly on replacing Chickamauga Lock, and 
it is disappointing that the administration has failed to do 
its job.
    Here is what we have done. Congress, first, passed a law 
that reduced the amount of money that comes from the Inland 
Waterways Trust Fund to replace Olmsted Lock, a project in 
Illinois and Kentucky that was soaking up almost all of the 
money that is available for inland waterway projects.
    Second, Congress worked with the commercial waterways 
industry to establish a priority list for projects that needed 
to be funded, on which Chickamauga Lock ranks near the top, in 
fourth place.
    And third, just this past year, working together, we 
enacted a user fee increase that commercial barge owners asked 
to pay in order to provide more money to replace locks and dams 
across the country, including Chickamauga Lock.
    These are three extremely important steps to give our 
country the inland waterways that we need. These three things 
taken together should make it possible for the Corps of 
Engineers to move rapidly to begin to replace Chickamauga Lock.
    The problem with Chickamauga Lock is it is made of aging 
concrete. It could fail if we don't replace it. In fact, in 
October of last year, the lock was closed for several days. It 
was closed to all navigation traffic for emergency repairs 
after an inspection revealed cracks in the concrete.
    The project is not just important to Chattanooga, but to 
all of eastern Tennessee because of the number of jobs 
affected. We are almost out of time for a solution. The lock 
could close in a few years unless progress is made.
    That would throw 150,000 trucks on Interstate 75. It would 
increase the cost of shipping to Oak Ridge, to the national 
laboratory, and to the weapons areas, and to manufacturers 
across the State.
    So you can see how Chickamauga Lock, and other projects 
like it across the country, ought to be a priority, and why the 
Corps' budget should make it a priority.
    In addition to the Corps, we fund the Bureau of 
Reclamation. The Bureau of Reclamation delivers water to one in 
five Western farmers, irrigating 10 million acres of some of 
the most productive agricultural land in the world.
    I would note that this is the first time that Commissioner 
Lopez and Secretary Gimbel have appeared before this 
subcommittee, and we welcome them both.
    Without the infrastructure that these two agencies provide, 
our Nation would be vastly different. With that in mind, we are 
here today to discuss the administration's fiscal year 2016 
budget request for both agencies. I will look forward to the 
testimony.
    Before I turn to Senator Feinstein for her statement, I 
would like to note that this is Roger Cockrell's last hearing, 
at least the last one he will attend in his capacity with us as 
a staff member of the Appropriations Committee. He is retiring 
at the end of the month, and we are going to miss him.
    For the past 14 budget cycles, Senators on the 
subcommittee, whether Republicans or Democrats, have been well 
served by Roger's expertise on both the Corps of Engineers and 
the Bureau of Reclamation. It is hard to think of anybody 
inside or outside Washington who matches Roger in knowledge or 
experience. It is hard to think of a water resources bill that 
has not benefited from his guidance.
    So, Roger, on behalf of the subcommittee, I wish to thank 
you for your service over these many years and to wish you and 
your family the best in your retirement.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    I would like to thank our witnesses for being here today, and also 
Senator Feinstein, who I will be working with on the appropriations 
bill that this subcommittee considers.
    Our witnesses today include:
  --Jo-Ellen Darcy, Assistant Secretary of the Army for Civil Works
  --Lieutenant General Thomas P. Bostick, Chief of Engineers for the 
        U.S. Army Corps of Engineers
  --Estevan Lopez, Commissioner for the Bureau of Reclamation
  --Jennifer Gimbel, Principal Deputy Assistant Secretary for Water and 
        Science for the Department of Interior
    This is my first budget hearing as chairman of the Appropriations 
Subcommittee on Energy & Water Development.
    Governing is about setting priorities, and unfortunately, the 
president's budget request for these agencies shows a failure to do so.
    The president's overall budget proposes spending that exceeds the 
budget caps established by the Budget Control Act of 2011 by about $74 
billion. One of the priorities he speaks about often is our Nation's 
infrastructure.
    Yet despite all that proposed new spending and all that talk, this 
proposal cuts the Corps' budget by $751 million, or about 14 percent 
below last year's actual spending level. This budget proposes cutting 
the Corps' funding to the actual level of spending in 2007--we are 
literally moving backward, on an agency that is crucial to maintaining 
our country's infrastructure.
    The reason this is such a problem is that the U.S. Army Corps of 
Engineers touches the lives of all Americans. The Corps maintains our 
inland waterways, keeps our ports open, looks after many of our 
recreational waters and land, manages the river levels to prevent 
flooding, and its dams provide emission-free, renewable hydroelectric 
energy.
    All of these activities attract the intense interest of the 
American people, and of their United States Senators. I can recall 
when, after the flooding of the Missouri and Mississippi rivers 4 years 
ago, eight Senators showed up at a Senate Environment and Public Works 
Committee hearing to discuss what went right and what went wrong with 
disaster relief efforts.
    The reality is that for all the Corps does there are many things it 
could do better, and setting priorities in our spending is one way to 
better invest taxpayer dollars.
    An important example of the administration's failure to set 
priorities is in my home State of Tennessee: the lack of any funds in 
the president's budget request to restart replacement of Chickamauga 
Lock. Congress has done its job to move ahead promptly on replacing 
Chickamauga Lock, and it's disappointing the Obama administration has 
failed to do its job.
    First, Congress passed a law that reduced the amount of money that 
comes from the Inland Waterways Trust Fund to replace Olmsted Lock, a 
project in Illinois and Kentucky that was soaking up almost all of the 
money that is available for inland waterway projects. Second, we worked 
with the commercial waterways industry to establish a priority list for 
projects that needed to be funded, on which Chickamauga ranks near the 
top, in fourth place. And third, just this past year we enacted a user 
fee increase that commercial barge owners asked to pay in order to 
provide additional funds to replace locks and dams across the country, 
including Chickamauga Lock.
    Those three things taken together should make it possible for the 
Corps of Engineers to move rapidly to begin to replace Chickamauga 
Lock. The problem with Chickamauga Lock is it's made of aging concrete 
and could fail if we don't replace it. In fact, in October of last 
year, the lock was closed for several days to all navigation traffic 
for emergency repairs after an inspection revealed cracks in the 
concrete.
    This project is important not just to Chattanooga, but to all of 
East Tennessee because of the number of jobs affected. We are almost 
out of time for a solution--the lock could close in a few years unless 
progress is made, throwing 150,000 trucks on I-75 and increasing the 
cost of shipping goods for Oak Ridge, Y-12, and manufacturers across 
the State.
    So you can see how Chickamauga Lock--and other projects like it 
across the country--ought to be a priority, and why the Corps' budget 
should be a priority.
    In addition to the Corps, we fund the Bureau of Reclamation.
    The Bureau of Reclamation delivers water to one in five Western 
farmers, irrigating 10 million acres of some of the most productive 
agricultural land in the world.
    I would note that this is the first time that Commissioner Lopez 
and Secretary Gimbel have appeared before this subcommittee, and we 
welcome them.
    Without the infrastructure that these two agencies provide, our 
Nation would be vastly 2016 budget request for these two agencies. I'll 
look forward to the testimony of our witnesses, but first would like to 
hear from our subcommittee's ranking member, Senator Feinstein.
    Senator Alexander. Now, Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman.
    I just want to begin by saying what a sincere pleasure it 
has been for me to work with you. I had the same relationship 
with Senator Chambliss on Intelligence. Regardless of who is in 
your seat today, I really believe we are a good working team. 
Where we disagree, we work it out. Where we come together, I 
think the Nation is better for it.
    So it has been a really great pleasure for me to work with 
you. I look forward to being ranking member on your 
subcommittee. I look forward to our getting our nuclear waste 
bill done that we have worked for 4 years now, put together 
with Lisa Murkowski, and then Jeff Bingaman, and then Jeff left 
and it was Wyden, and then Mary Landrieu, and now Maria 
Cantwell. That has been a very high priority for me and I know 
it is for you, too.
    So it has been a very good relationship, and I really 
appreciate it. I want you to know that.
    Senator Alexander. Thank you.
    Senator Feinstein. If I could just say a word about Roger, 
too. I think you said it all, Mr. Chairman. But he joined the 
committee in 2003. He had a 23-year career with the Army Corps 
of Engineers' Vicksburg District. He has worked on 14 
successive Energy and Water appropriations bills. He was 
involved in supporting critical national projects like the 
restoration of the Everglades. And I think most importantly, he 
has detailed knowledge of the appropriations process and the 
budgets of both the Corps and the bureau. And he was 
instrumental in shaping the Federal Government's response to 
hurricanes Katrina and Sandy.
    He has been a tremendous resource for me personally. And, 
actually, there is no one I would trust more than Roger 
Cockrell when it came to this particular budget.
    So, Roger, I am really so sorry that you are leaving. Our 
side is, and it is great to know the other side is as well. We 
all want to wish you the very, very best. So thank you so much.
    Okay, Mr. Chairman, I very much agree with you about your 
comments on the budget. I found it very surprising that there 
was a 13.8 percent drop in the Corps' budget and a 2.2 percent 
drop in Reclamation's budget.
    Candidly, it is really not acceptable when we consider all 
of the water resource needs our Nation faces. It is 
particularly troubling when there is such a big push for 
infrastructure spending elsewhere in the administration's 
budget. I don't know how they came to leave this out here, 
unless they knew that we were all passionate about it and we 
would probably put the money back here, at least that is kind 
of what I hope we do.
    As I often say, the work these agencies do affects more 
people on a daily basis than anything else in this bill. So I 
am a big fan of both of your agencies.
    You are responsible for improving our flood protection 
systems, maintaining and improving navigation channels and 
ports, providing ecosystem restoration, and perhaps most 
importantly, providing water for irrigation and municipal and 
industrial purposes.
    It is clear that in order to maintain and modernize our 
existing infrastructure to meet 21st century demands, we need 
sufficient budgets to accomplish real benefit. This budget, 
regretfully, does not do this.
    The ports and channels handled by the Corps handled more 
than 2.3 billion tons of cargo. Flood control infrastructure 
owned or managed by the Corps prevents more than $36 billion in 
annual damages. And Corps recreation facilities serve more than 
370 million visitors each year. Most people don't know that, 
that the Army Corps of Engineers runs these recreation 
facilities.
    So I think we need to help with this shoestring budget. I 
am concerned that your budgets have been so tight for so long. 
We talked about Chickamauga. Well, in my State I would talk 
about the California drought.
    We are in the fourth year of the worst drought. We've got 
wells running dry. We have people unable to have drinking water 
or bathing water. We have about 800,000 acres of land that is 
being fallowed because farmers can't plant.
    I must say that Reclamation has just been a tremendous help 
to us in that regard, by working to run the systems, to work 
with the State system, run both systems much more efficiently. 
We need to keep this up.
    What I am here to say is that I intend to work in every way 
possible to be cooperative with the chairman and try to do 
those things that can improve the situation for all of the 
States that are represented here.
    So I thank you, Mr. Chairman. That really completes my 
remarks.
    Senator Alexander. Thank you, Senator Feinstein.
    We have a tradition in the subcommittee of giving the 
Senators who are here an opportunity to make opening 
statements, if they would like, up to 5 minutes. We will do it 
back and forth in order of arrival. We will begin with Senator 
Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you for the 
opportunity of questioning our witnesses here today and to join 
you in welcoming them to our hearing. I have prepared an 
opening statement for the subcommittee's hearing. I will ask 
unanimous consent that statement be printed at this point in 
the record, and I will reserve my questions until the regular 
order.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Mr. Chairman, thank you for convening this hearing to review the 
President's fiscal year 2016 Budget request for the U.S. Army, Corps of 
Engineers and the Bureau of Reclamation. I appreciate the good work 
conducted by these agencies, and I look forward to learning more about 
their fiscal year 2016 funding needs.
    The activities carried out by the Army Corps help provide our 
country with the basic necessities to survive and prosper. Its civil 
works responsibilities support initiatives focused on navigation and 
waterborne commerce, flood prevention and storm damage reduction, 
environmental restoration, among other important activities. Without 
adequate funding, the Corps cannot perform these functions effectively, 
which would result in greater risk of catastrophic flooding and adverse 
impacts on our Nation's economy.
    Today I look forward to engaging in meaningful discussion with our 
distinguished members of the panel, because I have deep concerns with 
various aspects of the President's fiscal year 2016 Civil Works 
request. As Chairman of the Senate Appropriations Committee, I am aware 
of the challenges associated with outlining funding for all of the 
executive departments and independent agencies within the Federal 
Government. However, we cannot lose sight of the important work 
performed by the Amy Corps and their responsibilities to the Nation.
    The funding levels proposed by the administration for all of the 
Corps important infrastructure accounts--Investigations, Construction, 
Operation & Maintenance, and Mississippi River & Tributaries (MR&T)--
are far below the levels provided by Congress in the recently enacted 
fiscal year 2015 Omnibus appropriations bill. On the other hand, the 
President's budget requests increases for the Corps' regulatory 
programs and agency expenses, which is again cause for concern. 
Considering the President's comprehensive budget is expected to exceed 
the caps for discretionary spending set by the Budget Control Act of 
2011 by $74 billion, I question the level of priority this 
administration is placing on our Nation's critical infrastructure.
    Going forward, one of the most pressing issues this subcommittee 
must address pertains to the President's request for the Mississippi 
River & Tributaries (MR&T) project, which reflects neither the need nor 
the importance of this valuable flood control program. For fiscal year 
2016, the administration has requested $225 million for MR&T, which is 
far below the amount Congress had annually provided over the last 30 
years.
    In light of my concerns about the Corps Civil Works budget, I am 
pleased to have the opportunity to discuss these important matters so 
they can be addressed in the appropriations process. These hearings are 
designed for that specific purpose, and I am confident that our 
subcommittee will benefit from the valuable insight provided today by 
Lieutenant General Bostick and Assistant Secretary Darcy.
    I appreciate today's witnesses appearing before this subcommittee, 
and I look forward to hearing their testimony.

    Senator Alexander. Thank you, Senator Cochran. It will be 
included.
    Next, Senator Merkley.

                   STATEMENT OF SENATOR JEFF MERKELY

    Senator Merkley. Thank you very much, Mr. Chairman. This is 
the first hearing of the subcommittee that I have been a part 
of as a new member, so I am delighted to join the subcommittee 
on these issues of energy and water and, of course, today, 
particularly water.
    The Army Corps of Engineers and Bureau of Reclamation, 
these organizations reverberate in so many issues that we 
encounter in Oregon. So I look forward to hearing their 
testimony and exploring ways that we can maximize the 
effectiveness of their good work on the ground. Thank you very 
much.
    Senator Alexander. Thank you, Senator Merkley.
    Senator Udall.

                     STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Thank you very much, Chairman Alexander. I 
am back on the subcommittee, and I look forward to it. I know 
that you and Senator Feinstein work very well together, and I 
look forward to being a part of that team. I really appreciate 
your good bipartisan work.
    I want to take a minute to congratulate Commissioner 
Estevan Lopez, the new Commissioner of the Bureau of 
Reclamation. Estevan is a native New Mexican. We are proud of 
him and pleased to have him represent our State in such an 
important leadership role.
    I want to welcome you to your first hearing as Commissioner 
before this subcommittee.
    Commissioner Lopez understands the issues that are 
critically important to the West. He has more than 20 years of 
experience in water management policy. We really look forward 
to working with you on those issues.
    As you all know, issues of drought and future water supply 
are critically important to the State of New Mexico. Climate 
change and prolonged drought have meant devastating wildfires. 
Extreme weather events alter our watersheds. Competing 
interests from municipalities, agriculture, wildlife, and 
industry strain our limited water resources.
    Programs that help provide sustainable water management are 
crucial and need to be adequately funded. I am pleased to see 
the President's budget has highlighted some of these priorities 
to ensure support for important tribal water settlements and 
grant programs, for instance, programs like WaterSMART, which 
promotes public-private partnerships for much-needed 
infrastructure funding.
    I intend to work my colleagues to make sure that this 
program and others like it have the resources they need.
    With that, I look forward to hearing from today's witnesses 
and yield back the balance of my time, Mr. Chairman.
    Senator Alexander. Thank you, Senator Udall. Welcome to the 
subcommittee. Welcome back.
    And, Senator Merkley, welcome to you.
    Senator Tester.

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. I want to echo the statements of many of 
the subcommittee participants in thanking Chairman Alexander 
and Ranking Member Feinstein for your ability to work together 
and your common-sense approach to everything in the Senate, but 
especially this issue, water resources. It is very, very 
important, and I want to thank the panelists for being here.
    I just stepped in, I sat down, and I drink this water. I 
did not think one thing about it. I just assumed that it would 
be here, not a problem. And that is part of the problem. The 
fact is that good water resources take planning and dollars, 
because you have to have the infrastructure to support it. That 
is your job, and it is our job to make sure you have the tools 
and the resources to be able to do your job and do it right. 
Everything from agriculture to recreation to just the basic 
necessities of life is water.
    I look forward to working with everybody at the table today 
and a whole lot of other folks to make sure that we have the 
water infrastructure in this country to meet the needs of a 
21st century United States of America. So thank you all for 
your work.
    Senator Alexander. Thank you, Senator Tester.
    Senator Collins and Graham, we want to give each of you a 
chance to make an opening statement.
    Senator Graham, you have a hearing at 3 p.m.?
    Senator Graham. Yes, Mr. Chairman. We are doing the pay and 
benefits reform commission.
    Senator Alexander. Senator Collins, would you mind?
    We will go to Senator Graham and then Senator Collins.
    Senator Graham. This is an opening statement?
    Senator Alexander. Yes.

                  STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. I thank you for coming.
    Roger, you will be missed. You have done an incredible job 
for a long period of time.
    To our witnesses, you have been great working with 
Charleston and other areas important to South Carolina. I will 
come back and ask you questions about the Port of Charleston.
    As to the committee, I hope we can find a way to fix 
sequestration. You cannot get there from here. Anything and 
everything should be on the table. The projects we need as a 
Nation are enormous; the money is insufficient. If we do not 
fix sequestration, we are going to run into infrastructure 
nightmares all over the country.
    I cannot think of a better duo to do this than our chairman 
and ranking member.
    Senator Alexander. We will count on you to be the platoon 
leader.
    Lindsey, I think we may have a vote around 3:45 or 4:00, 
but we will arrange to give every Senator an opportunity to ask 
the questions you want to ask of the witnesses, even if votes 
come in the middle of it.
    Senator Collins.

                 STATEMENT OF SENATOR SUSAN M. COLLINS

    Senator Collins. Thank you very much, Mr. Chairman. I want 
to thank you and the ranking member for holding this hearing 
today to review the fiscal year 2016 budget submissions for the 
Army Corps of Engineers and the Bureau of Reclamation.
    The Army Corps projects are particularly important in my 
State, and they play such an important role in local economies. 
There is an ongoing need to address the maintenance backlog and 
to ensure that our ports and harbors are properly maintained.
    A great example of that for which I want to thank the Army 
Corps is the cooperative work that it did with the town of 
Yarmouth this past fall to dredge the Royal River. The river 
was gradually filling up to the point where it threatened the 
survival of the marina that was located there and would have 
affected the economy of the region.
    The Army Corps worked very closely with the town, both 
financially and in the timing, and I really appreciate that 
project being done.
    I also want to salute the efforts of the chairman and 
ranking member for working with me and other members of the 
subcommittee last year to include the $42.5 million for 
operation and maintenance at small, remote, or subsistence 
navigation harbors and waterways.
    In a State like mine, with an extensive coastline, those 
small harbors are just as critical to the coastal communities 
as large, better-known harbors are in this country. They are 
truly the economic lifeblood for many small and rural 
communities. And the funding for their maintenance dredging is 
critically important.
    Sometimes that is not fully accounted for under the Corps' 
budget metrics, which tend to favor larger ports. That is why 
the money that has been set aside in recent years is so 
important.
    I am extremely pleased to learn that the Corps' business 
fiscal year 2015 work plan includes $2.9 million for 
maintenance dredging at Beals Harbor in Maine, and $1.2 million 
for Pig Island Gut--that probably doesn't trippingly come off 
the tongues of many here--which is also in the Beals area. If 
all goes well, those projects, which are absolutely essential, 
will begin this fall.
    Finally, I want to associate myself with the comments made 
by the chair and ranking member about the cuts to the Army 
Corps budget. The cuts are deep. The needs are great. And I 
hope we can work together to try to narrow the gap.
    Thank you very much, Mr. Chairman.
    Senator Alexander. Thank you, Senator Collins.
    Senator Lankford, each of the Senators has made a short 
opening statement. You are welcome to make one too, if you 
would like to do that.
    Senator Lankford. Why don't I just submit one for the 
record, so we can get on with the testimony?
    Senator Alexander. Thank you, Senator Lankford.
    We will move on to the testimony. I have introduced the 
witnesses, so, General Bostick, why don't we begin with you and 
then go right down the line? If each of you would summarize 
your remarks in about 5 minutes, we would appreciate it.

       SUMMARY STATEMENT OF LIEUTENANT GENERAL THOMAS P. BOSTICK

    General Bostick. Thank you, Mr. Chairman and members of the 
subcommittee. I am honored to testify before your subcommittee 
today along with the Honorable Jo-Ellen Darcy on the 
President's fiscal year 2016 budget for the Civil Works Program 
of the United States Army Corps of Engineers.
    This is my third time to testify before the subcommittee on 
the civil works budget. Thank you for your support in the past, 
and I look forward to your continuing efforts together in the 
future.
    I have been in command for nearly 3 years, and I would like 
to provide a brief update on our four campaign goals, which 
drive the organization.
    First, support to national security. The Corps supports the 
national security of the United States. We continue to work in 
more than 110 countries using our civil works and military 
missions, water resources, and research and development 
expertise to support our Nation's combatant commanders. Army 
Corps employees, both military and civilian from all across the 
Nation, have volunteered and continue to volunteer to provide 
critical support to our military and for humanitarian missions 
abroad.
    Second, transform civil works. Civil works transformation 
focuses on four broad areas. First, we are modernizing the 
project planning process. Second, we're enhancing the budget 
development process through a systems-oriented approach that 
includes significant collaboration. Third, we are developing an 
infrastructure strategy to evaluate the current inventory of 
projects that will help identify priorities and develop better 
solutions to water resources challenges. And fourth, we're 
improving methods of delivery, to produce and deliver sound 
decisions, products, and services that will improve the ways in 
which we manage and use our water resources.
    Since the inception of civil works transformation in 2008, 
42 chief's reports have been completed. During that 7-year 
period, 13 chief's reports were completed in the first 4 years 
and 29 chief's reports were completed in the last 3. This is 
clear evidence that we are learning and becoming more efficient 
in our processes.
    In our third campaign plan goal, we must continue to be 
proactive and develop improved strategies to reduce disaster 
risks, as well as respond to natural disasters when they do 
occur. I continue to be very impressed at the work of the Army 
Corps of Engineers in this area.
    One great example of this proficiency is with Hurricane 
Sandy recovery work. The flood control and coastal emergency 
program is over 95 percent complete. The Sandy operations and 
maintenance program is over 70 percent complete and on schedule 
to be 100 percent complete by the end of 2016.
    I am pleased to highlight that the Army submitted the North 
Atlantic Coast Comprehensive Study on schedule to Congress and 
the American people on 28 January 2015.
    And our fourth goal is to prepare for tomorrow. This is 
about our people, ensuring that we have a pipeline of talented 
military and civilian teammates as well as a strong workforce 
development and talent management program.
    Equally important is helping the Nation's wounded warriors 
and soldiers transition out of Active Duty to find fulfilling 
careers. Last year, we set a goal to assist 125 transitioning 
wounded warriors, and we exceeded that goal by more than 50 
percent. Nearly 200 wounded warriors found permanent positions 
within the Corps and other organizations.
    We are also focused on research and development efforts 
that will help some of the Nation's toughest challenges.
    Mr. Chairman, I ask that you and other members refer to my 
complete written testimony submitted to the subcommittee for 
the fiscal year 2016 budget for specifics.
    Thank you again for this opportunity. I look forward to 
your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Thomas P. Bostick
    Mr. Chairman and members of the subcommittee: I am honored to be 
testifying before your committee today, along with the Assistant 
Secretary of the Army for Civil Works, the Honorable Jo-Ellen Darcy, on 
the President's fiscal year 2016 Budget for the Civil Works Program of 
the United States Army Corps of Engineers (Corps). This is my third 
time before this Subcommittee to testify on the Civil Works budget; 
thank you for your support in the past, and I look forward to 
continuing to work together.
    I have been in Command of the Corps for nearly 3 years, and I want 
to briefly update you on the four Campaign Plan Goals for the Corps.
    First, Support National Security. The Corps supports the National 
Security of the United States. We continue working in more than 110 
countries, using our Civil Works, Military Missions, and Water 
Resources Research and Development expertise to support our Nation's 
Combatant Commanders. We are proud to serve this great Nation and our 
fellow citizens, and we are proud of the work the Corps does to support 
America's foreign policy. Civilian Army Corps employees from across the 
Nation have volunteered--and continue to volunteer--to work, in a 
civilian capacity, to provide critical support to our military missions 
abroad and humanitarian support to the citizens of those nations. Many 
of them have served on multiple deployments.
    Second, Transform Civil Works. The four elements of the Civil Works 
Transformation strategy will make the Corps more efficient and 
effective while continuing to support the Nation by addressing some of 
our greatest infrastructure needs. Civil Works Transformation focuses 
on modernizing the project planning process; enhancing the budget 
development process through a systems-oriented approach and 
collaboration; evaluating the current inventory of projects and the 
portfolio of proposed water resources projects using an infrastructure 
strategy to identify priorities and develop better solutions to water 
resources problems; and improving methods of delivery to produce and 
deliver sound decisions, products, and services that will improve the 
ways in which we manage and use our water resources.
    Since the inception of Civil Works Transformation efforts in 2008, 
42 Chief's reports have been completed. In 7 years, 13 Chief's Reports 
were completed in the first 4 years, and 29 Chief's Reports completed 
in the last three; we are learning and becoming more efficient in our 
processes.
    Third, we must continue to be proactive and develop better 
strategies to Reduce Disaster Risks, as well as respond to natural 
disasters when they do occur, under the National Response Framework, 
National Disaster Recovery Framework, Public Law 84-99 as amended, and 
Corps project authorities for flood risk management. I continue to be 
amazed at the work the Army Corps does in this arena. One great example 
of this proficiency is the Hurricane Sandy recovery work ongoing in 
three of our Divisions. The Flood Control and Coastal Emergency (FC&CE) 
program is over 95 percent complete. At the end of 2014, the South 
Atlantic Division completed its Sandy Operation and Maintenance 
program; with nearly 70 percent complete, both the North Atlantic 
Division and Great Lakes and Ohio River Division O&M programs are on 
schedule to be 100 percent complete by the end of 2016. And I'm pleased 
to highlight that the Army submitted the North Atlantic Coast 
Comprehensive Study to Congress and the public on 28 January 2015. This 
2-year study addresses coastal storm and flood risk from New Hampshire 
to Virginia and provides a Coastal Storm Risk Management Framework, 
data, and tools such as the Sea Level Change Calculator that are now 
available online to help all stakeholders better assess vulnerabilities 
and adopt forward thinking floodplain management strategies.
    Fourth, Prepare for Tomorrow. This is about our People--ensuring we 
have a pipeline of Science, Technology, Engineering and Mathematics 
workers, as well as Workforce Development and Talent Management. 
Equally important is helping the Nation's Wounded Warriors and Soldiers 
transitioning out of active duty to find fulfilling careers. I am proud 
that last year we set a goal to assist 125 transitioning Wounded 
Warriors, and we exceeded that goal by more than 50 percent. Nearly 200 
Wounded Warriors found permanent position within the Corps and other 
organization.
    We are also focused on Research and Development efforts that will 
help solve some of the toughest challenges facing the Army and the 
Nation. Civil Works Program research and development provides the 
Nation with innovative engineering products, some of which can have 
applications in both civil and military infrastructure spheres. By 
creating products that improve the efficiency of the Nation's 
engineering and construction industry and providing more cost-effective 
ways to operate and maintain public infrastructure, Civil Works program 
research and development contributes to the national economy.
                   summary of fiscal year 2016 budget
    The fiscal year 2016 Civil Works Budget is a performance-based 
budget, which reflects a focus on the work that will provide the 
highest net economic and environmental returns on the Nation's 
investment or address a significant risk to safety. Investments in the 
Civil Works program will reduce the risks of flood impacts in 
communities throughout the Nation, facilitate waterborne 
transportation, restore and protect significant aquatic ecosystems, 
generate low-cost renewable hydropower and support American jobs. 
Continued investment in critical Civil Works infrastructure projects is 
an investment in the Nation's economy, security and quality of life--
now and in the future.
    The Budget focuses on high performing projects and programs within 
the three main water resources missions of the Corps: commercial 
navigation, flood and storm damage reduction, and aquatic ecosystem 
restoration. The fiscal year 2016 Budget includes $4.732 billion in 
gross discretionary funding to fund Civil Works activities throughout 
the Nation, including the construction of water resources projects that 
will provide high economic, environmental and public safety returns on 
the Nation's investment. Second, in the Operation and Maintenance 
program, the Budget focuses on investments that address infrastructure 
maintenance needs on a risk assessment basis. The budget also proposes 
an increase in funding for the Regulatory program to better protect and 
preserve the Nation's water-related resources.
                         investigations program
    The fiscal year 2016 Budget provides $97 million in the 
Investigations account, and $10 million in the Mississippi River and 
Tributaries account to fund projects, programs, and activities that 
will enable the Corps to evaluate and design projects that are the most 
likely to be high-performing within the Corps three main mission areas. 
The Budget also supports the Corps planning and technical assistance 
programs, including using its expertise to help local communities 
increase their resilience to risks such as the flood risks in coastal 
communities associated with sea level rise.
                          construction program
    The goal of the construction program is to produce as much value as 
possible for the Nation from the available funds. The Budget provides 
$1.172 billion for the Construction account, and $62 million in the 
Mississippi River and Tributaries account, to further this objective 
and gives priority to the projects with the greatest net economic and 
environmental returns per dollar invested, as well as to projects that 
address a significant risk to safety. The Budget includes funds for 
four high-priority construction new starts: Port Lions Harbor 
(Deepening and Breakwater), Alaska; Coyote and Berryessa Creeks, 
Berryessa Creek, California; Ohio River Shoreline, Paducah, Kentucky; 
and Marsh Lake, Minnesota River Authority, Minnesota. In keeping with 
our Civil Works transformation strategy, the Budget also allocates 
construction funding to complete projects and deliver their benefits to 
the Nation sooner.
    The Corps uses objective performance measures to establish 
priorities among projects. These include benefit-to-cost ratios for 
projects that are being funded primarily due to their economic outputs. 
For projects funded on the basis of their environmental return, those 
projects that are highly effective at restoring degraded structure, 
functions or processes of significant aquatic ecosystems on a cost-
effective basis are given priority. The selection process also gives 
priority to dam safety assurance, seepage control, and static 
instability correction projects and to projects that address a 
significant risk to safety.
                   operation and maintenance program
    All structures age over time with a potential decline in 
reliability. With proper maintenance and periodic rehabilitation, we 
can extend for many years the effective lifetime of most of the 
facilities owned or operated by, or on behalf of, the Corps. As 
stewards of this infrastructure, we are working to ensure that its key 
features continue to provide an appropriate level of service to the 
American people. In some cases, this is proving to be a challenge.
    The Corps strives to continually improve the efficiency and 
effectiveness of its investigations, construction, and operation and 
maintenance programs. In fiscal year 2016, the Corps will further 
expand the implementation of a modern asset management program, 
dedicating an increased amount of its O&M funding to the key features 
of its infrastructure and for work that will reduce long-term O&M costs 
in real terms, while implementing an energy sustainability program and 
pursuing efficiencies in the acquisition and operation of its 
information technology.
    The Budget for the operation and maintenance program provides $2.71 
billion in the Operation and Maintenance (O&M) account, and $152 
million in the Mississippi River and Tributaries account. Our focus in 
this program is on the operation and maintenance of key commercial 
navigation, flood and storm damage reduction, hydropower, and other 
facilities. The Budget gives priority to those coastal ports and inland 
waterways with the most commercial traffic, and includes $915 million 
to be spent from the Harbor Maintenance Trust Fund. The Budget also 
funds small harbors that support significant commercial fishing, 
subsistence, or public transportation benefits. The Budget provides 
operation and maintenance funding for safety improvements at Federal 
dams and levees based on the risk and consequence of a failure. 
According to our analyses, almost half of the 707 Corps dams will 
likely require some form of modification or risk reduction measure in 
the future if they are to continue to serve their original purposes.
    Generally, the O&M program supports completed works owned or 
operated by the Corps, including administrative buildings and 
laboratories. Work to be accomplished includes: operation of the locks 
and dams along the inland waterways; dredging of inland and coastal 
Federal channels; operating multiple purpose dams and reservoirs for 
flood risk reduction, hydropower, recreation, and related purposes; 
maintenance and repair of the facilities; monitoring of completed 
coastal projects; and general management of Corps facilities and the 
land associated with these purposes.
    The fiscal year 2016 Budget provides $212 million in Operation and 
Maintenance for hydropower activities in order to maintain basic power 
components such as generators, turbines, transformers and circuit 
breakers at Corps hydropower facilities to keep them operating 
efficiently and effectively. The Corps is the largest hydropower 
producer in the U.S., producing 24 percent of the Nation's hydropower.
                          reimbursable program
    Through the Interagency and International Services (IIS) 
Reimbursable Program, the Civil Works program helps other Federal 
agencies, State, local, and tribal governments, and other countries 
with timely, cost-effective implementation of their programs. These 
agencies can turn to the Corps of Engineers, which already has these 
capabilities, rather than develop their own internal workforce and 
expertise to oversee project design and construction. Such 
intergovernmental cooperation is effective for agencies and the 
taxpayer by using the skills and talents that we bring to our Civil 
Works and Military Missions programs. The work is principally technical 
oversight and management of engineering, environmental, and 
construction contracts performed by private sector firms, and is 
financed by the agencies we service. IIS Reimbursable Program 
activities in support of our domestic stakeholders totaled $905 million 
in fiscal year 2014. We only accept agency requests that are consistent 
with our core technical expertise, in the national interest, and that 
we can execute without impacting our primary mission areas.
                          emergency management
    The fiscal year 2016 Budget proposes an increase in funding for the 
Flood Control and Coastal Emergencies account to enable the Corps to 
prepare for emergency operations in response to natural disasters. The 
Budget for the emergency management program also includes $4.5 million 
for the National Emergency Preparedness Program as well as $3 million 
in the Investigations account for the Corps participation in the 
development and expansion of interagency teams, known as Silver 
Jackets, which collaboratively reduce the risks associated with 
flooding and other natural hazards. The Silver Jackets is an innovative 
program providing a common forum to address State and local flood risk 
management priorities. Silver Jacket programs are developed at the 
State level. Currently, there are 43 active teams (42 States and the 
District of Columbia); the ultimate goal is to offer an interagency 
team in every State.
                               conclusion
    The fiscal year 2016 Budget represents a continuing, fiscally 
prudent investment in the Nation's water resources infrastructure and 
restoration of its aquatic ecosystems. The U.S. Army Corps of Engineers 
is committed to a performance-based Civil Works Program, based on 
innovative, resilient, sustainable, risk-informed solutions.
    Thank you, Mr. Chairman and members of the subcommittee. This 
concludes my statement. I look forward to answering questions you or 
other members of the subcommittee may have.

    Senator Alexander. Thank you, General.
    Secretary Darcy.
STATEMENT OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY 
            OF THE ARMY FOR CIVIL WORKS
    Ms. Darcy. Thank you, Mr. Chairman, and distinguished 
members of the subcommittee. Thank you for the opportunity to 
present the President's budget for the Civil Works Program of 
the Army Corps of Engineers for fiscal year 2016.
    This year's civil works budget reflects the 
administration's priorities through targeted investments in the 
Nation's water resources infrastructure, including dams and 
levees, navigation, and the restoration of ecosystems.
    It supports a civil works program that relies on a 
foundation of strong relationships between the Corps and local 
communities, which allows us to work together to meet their 
water resources needs.
    The budget also helps us in our efforts to promote the 
resilience of communities to respond to the impacts of climate 
change. We are investing in research, planning, vulnerability 
assessments, pilot projects, and evaluations of the value and 
performance of nonstructural and natural measures.
    The budget also helps us to maintain and improve our 
efforts on sustainability. For example, we are reducing the 
Corps' carbon footprint by increasing renewable electricity 
consumption, reducing greenhouse gas emissions, and reducing 
non-tactical vehicle petroleum consumption.
    We are also advancing our sustainability efforts by using 
innovative financing techniques, such as energy savings 
performance contracts.
    We are making important investments to promote the 
sustainable management of the lands around Corps facilities by 
providing funds to update the plans that govern how we manage 
our facilities and to help combat invasive species.
    The budget also focuses on maintaining the water resources 
infrastructure that the Corps owns and manages, and on finding 
innovative ways to rehabilitate it, hand it over to others, or 
retire it.
    Here are some of the funding highlights for this year's 
budget. It provides $4.7 billion in gross discretionary 
appropriations for the Army Civil Works Program, focusing on 
investments that will yield high economic and environmental 
returns or address a significant risk to public safety.
    The budget focuses funding on our three major mission 
areas, allocating 41 percent to commercial navigation, 27 
percent to flood and storm damage reduction projects, and 9 
percent to aquatic ecosystem restoration.
    Other effective and sound investments include allocating 5 
percent of the budget to hydropower, 2 percent to the cleanup 
of sites contaminated during the early years of the Nation's 
nuclear weapons program, and 4 percent to regulatory 
activities.
    Overall, the budget funds 57 projects, nine of those to 
completion. It also funds 54 feasibility studies, 13 of those 
to completion. The budget also includes four new construction 
starts, two of which the Corps will complete in 1 year.
    The budget funds inland waterway capital investments at 
$974 million, of which $53 million will be derived from the 
Inland Waterways Trust Fund. The budget provides $950 million 
from the Harbor Maintenance Trust Fund to maintain coastal 
channels and related works, matching the highest amount ever 
budgeted.
    The $44 million is provided for our comprehensive levee 
safety initiative that will help ensure that all Federal levees 
are safe and in line with the Federal Emergency Management 
Administration standards. This initiative will provide 
nonfederal entities with access to levee data that will inform 
them on safety issues.
    The budget supports a Corps program that has a diverse set 
of tools and approaches to working with local communities, 
whether this means funding projects with our cost-sharing 
partners or providing planning assistance and technical 
expertise to help communities make better informed decisions.
    This year, the President's civil works budget provides $31 
million for the Corps to provide local communities with 
technical and planning assistance to help them develop and 
implement nonstructural approaches to improve their resilience 
to the impacts of climate change.
    We continue to contribute to the Nation's environmental 
restoration and the budget provides funding to restore several 
large ecosystems that have been the focus of interagency 
collaboration, including the California Bay Delta, the 
Chesapeake Bay, the Everglades, the Great Lakes, and the Gulf 
Coast.
    Other funded Corps efforts include the Columbia River, 
portions of Puget Sound, and priority work in the upper 
Mississippi, as well as Missouri rivers.
    Finally, this budget provides $6 million for the Corps' 
Veterans Curation Program, which was started in 2009 with 
support from the American Recovery and Reinvestment Act. The 
program offers veterans the opportunity to learn tangible work 
skills and gain experience by rehabilitating and preserving 
federally owned or administered archaeological collections 
found at the Corps' projects.
    Mr. Chairman, if you could indulge me in having me give my 
personal thanks to Roger Cockrell, as well. He has been a 
longtime friend, a personal friend, as well as a friend to the 
Army and a friend to the Corps of Engineers. He will be truly 
missed.
    [The statement follows:]
               Prepared Statement of Hon. Jo-Ellen Darcy
    Thank you Chairman Simpson and distinguished members of the 
subcommittee for the opportunity to present the President's Budget for 
the Civil Works program of the Army Corps of Engineers for fiscal year 
2016. We are pleased to have an opportunity to further expand on the 
Administration's priorities and goals. Those priorities include 
promoting resilient communities in the wake of the impacts of climate 
change and sea level rise; fostering and maintaining strong 
partnerships with local communities; and practicing sustainability and 
sound stewardship across all our missions. I also want to take this 
opportunity to touch on points that this committee has raised in the 
past.
    This year's Civil Works Budget reflects the Administration's 
priorities through targeted investments in the Nation's water resources 
infrastructure, including dams and levees, navigation, and the 
restoration of aquatic ecosystems.
    The 2016 Civil Works Budget provides $4.7 billion in discretionary 
appropriations for the Army Civil Works program, focusing on 
investments that will yield high economic and environmental returns or 
address a significant risk to safety.
    The Budget focuses on funding our three major mission areas:
  --41 percent of funding is allocated to commercial navigation,
  --27 percent to flood and storm damage reduction,
  --And 9 percent to aquatic ecosystem restoration.
    Other practical, effective, sound investments include allocating 5 
percent of the Budget to hydropower, 4 percent to regulatory 
activities, and 2 percent to the clean-up of sites contaminated during 
the early years of the Nation's nuclear weapons program.
    The Civil Works program, which this Budget supports, relies on the 
strong relationships between the Corps and local communities; these 
strong relationships allow us to work together to meet their water 
resources needs across all of our missions, as well as to address 
broader water resources challenges that are of concern at the national 
or regional level.
    The Budget supports a Civil Works program that has a diverse set of 
tools and approaches to working with local communities, whether this 
means funding studies and projects with our cost-sharing partners, or 
providing planning assistance and technical expertise to help 
communities make better informed decisions.
                         planning modernization
    This Budget supports the continued implementation of Corps efforts 
to modernize its planning process. The Budget provides funding in the 
Investigations account for 54 feasibility studies, and funds 13 of them 
to completion.
    Section 1002 of the Water Resources Reform and Development Act of 
2014 repeals the requirement for the Corps to conduct a federally 
funded reconnaissance study prior to initiating a feasibility study. 
This creates an accelerated process which allows non-Federal project 
sponsors and the Corps to proceed directly to the cost shared 
feasibility study. The Budget reflects that change, and does not 
propose any new reconnaissance studies.
    The Budget reflects full implementation of the SMART (Specific, 
Measurable, Attainable, Risk Informed, Timely) planning initiative, 
under which each feasibility study is to have a scope, cost, and 
schedule that have been agreed upon by the District, Division, and 
Corps Headquarters. The Budget supports efficient funding of these 
studies.
    Studies generally are funded with the presumption that they will 
complete in 3 years and for $3 million ($1.5 million Federal). For most 
studies, the Corps estimates that it will spend $300,000 in the first 
year, $700,000 in the second year, and $500,000 in the final year. In 
the first year, the Corps will work to identify the problem, develop an 
array of alternatives, and begin the initial formulation. The bulk of 
the study costs are anticipated to be incurred during year two, as the 
alternatives are narrowed down and a Tentatively Selected Plan is 
identified, which requires more detailed feasibility analysis and 
formulation. During the third year, the focus is on completing the 
detailed feasibility analysis, State and agency review, and ?finalizing 
the Chief's Report. There are limited exceptions to this funding 
stream, where the Corps has approved an increase in the study cost or 
an extension in its schedule based on factors such technical 
complexity, public controversy, the need for more detailed work to 
address a specific issue, or the overall cost of a proposed solution.
    The Budget includes funding to complete two ongoing preconstruction 
engineering and design efforts. Within the past year, the Corps has 
initiated 19 new studies under the fiscal year 2014 and fiscal year 
2015 work plans. The Budget does not propose additional new studies for 
fiscal year 2016. Instead, the Corps would focus on managing its 
existing portfolio of ongoing studies and bringing them to a 
conclusion. However, the Budget does propose two important, new 
initiatives in the Investigations account--the North Atlantic Coast 
Comprehensive Study Focus Areas; and Disposition of Completed Projects. 
Both of these are funded as remaining items.
North Atlantic Coast Comprehensive Study Focus Areas
    The Disaster Relief Appropriations Act, 2013, tasked the Corps to 
work with a variety of partners to conduct a Comprehensive Study of the 
coastal areas affected by Hurricane Sandy to evaluate flood risks and, 
as part of this study, to identify areas warranting further analysis 
and institutional and other barriers to reducing flood risks. The Water 
Resources Reform and Development Act, 2014, provided further 
requirements to the study. In January of 2015, the U.S. Army Corps of 
Engineers released to the public the North Atlantic Coast Comprehensive 
Study (NACCS) detailing the results of a 2-year effort to address 
coastal storm and flood risk to vulnerable populations, property, 
ecosystems, and infrastructure in the North Atlantic region of the 
United States affected by Hurricane Sandy in October 2012.
    Within the NACCS, nine focus areas were identified and analyzed. 
There is a new remaining item included in the fiscal year 2016 Budget 
in the Investigations account to follow on with additional analysis 
into those focus areas; in-depth studies of three of the nine areas--
New York-New Jersey Harbor, the New Jersey Back Bays, and Norfolk, 
Virginia--will be undertaken beginning in fiscal year 2016 under this 
remaining item.
Disposition of Completed Projects
    The Corps would use the funds provided under the new remaining item 
for Disposition of Completed Projects to develop a process to help 
identify projects that it could sell or transfer to other parties, and 
to determine the viability of such a divestiture and what actions would 
be necessary to make it happen. In the future, funds provided through 
this line item would primarily be used to undertake studies or analyses 
of options for candidate projects to support specific divestiture 
recommendations.
                              construction
    The Budget for the construction program funds 53 ongoing efforts, 
and four new ones. It funds nine of them to completion. Several of 
these efforts are in fact programs, which comprise multiple projects. 
For transparency, the supporting budget justification materials for 
each of these programs display their constituent parts separately. For 
example, the South Florida Ecosystem Restoration Program includes many 
projects. Some of these projects are part of an integrated, ongoing 
Federal and State effort to restore the unique aquatic ecosystem of the 
Everglades; while others primarily seek to restore the aquatic 
ecosystems of surrounding areas. This year's Budget also presents the 
main stem flood damage reduction features of the Lower Mississippi 
River together, since they are the component parts of a single, 
integrated project.
    The Corps continues to contribute to the Nation's efforts to 
restore degraded environments; to that end, the Budget for the Corps 
funds restoration of several large aquatic ecosystems that have been a 
focus of interagency collaboration, including the California Bay-Delta, 
the Chesapeake Bay, the Everglades, the Great Lakes, and the Gulf 
Coast. Other funded efforts include the Columbia River, portions of 
Puget Sound, and priority work in the Upper Mississippi and Missouri 
Rivers.
    The Budget requests funds sufficient to complete nine construction 
projects. Among these is the Chicago Sanitary and Ship Canal Dispersal 
Barrier in Illinois; the Budget will allow the Corps to physically 
complete Permanent Barrier I and appurtenant features. Finishing this 
project has been a high priority of both the Administration and 
Congress and I am pleased that the Corps will be able to deliver a 
solution that will reduce the risk of migration of Asian carp and other 
invasive species between the Great Lakes and Mississippi River through 
the Chicago Area Waterway System (CAWS). After fiscal year 2016, work 
for this project will be limited to operation and maintenance and will 
be funded through the Operation and Maintenance account.
    The Budget also helps to further combat the spread of invasive 
species by its proposals for funding work associated with the Great 
Lakes and Mississippi River Interbasin Study (GLMRIS). The Budget 
supports efforts to reduce the risk of interbasin transfer of aquatic 
nuisance species through the CAWS in the vicinity of Brandon Road Lock 
and Dam. The Brandon Road effort will assess the viability of 
establishing a single point to control the one-way, upstream transfer 
of aquatic nuisance species from the Mississippi River basin into the 
Great Lakes basin near the Brandon Road Lock and Dam located in Joliet, 
Illinois. Carryover funds are being used to develop a scope, schedule, 
and cost for a study. This is needed as a basis for further action to 
undertake a feasibility-level evaluation of options to support a 
decision. The Budget includes funding to continue this effort.
    Another completion of note is the Main Tunnel System (Stage 1) of 
the McCook Reservoir, Illinois project. The $9 million in the Budget 
coupled with the additional funds provided in the fiscal year 2015 work 
plan will allow the Corps to complete this work on a schedule that will 
support the non-Federal sponsor, the Metropolitan Water District of 
Greater Chicago, in meeting its requirements under the Clean Water Act 
by December 2017.
    Also funded to completion are two dam safety projects in Oklahoma--
Pine Creek Lake and Canton Lake--that will result in reduced dam safety 
action classification ratings as a result of the construction.
Dam and Levee Safety
    Over the last several years, Congress has funded the dam safety 
program at a lower level than the Budget, based on revisions of 
capabilities that the Corps has provided to Congress subsequent to the 
Budget submission; these revisions--often but not always showing a 
lower capability than requested in the Budget--are caused by a variety 
of factors, including savings from contract awards, process 
efficiencies, and unforeseen changed conditions. The Budget includes 
$310 million (not including $24 million for the Dam Safety remaining 
item) for the dam safety program that, when coupled with anticipated 
unobligated carryover balances on these important projects, will ensure 
that each of the Dam Safety Action Classification (DSAC) I and DSAC II 
projects funded in the Budget is able to progress as efficiently and 
effectively as possible toward risk reduction.
    The Budget also provides $44 million for a comprehensive levee 
safety initiative that will help ensure that all Federal levees are 
safe and in line with the Federal Emergency Management Administration 
standards.
Inland Waterways
    The overall condition of the inland waterways has improved over the 
last few years. The number of lock closures due to preventable 
mechanical breakdowns and failures lasting longer than 1 day and 
lasting longer than one week has decreased significantly since fiscal 
year 2010. However, the lock closures that do occur result in 
additional costs to shippers, carriers, and users. That is why the 
Budget continues to provide a high level of funding to operate and 
maintain the inland waterways, with emphasis on those that together 
carry 90 percent of the commercial traffic.
    The Budget funds inland waterways capital investments at $974 
million, of which $53 million will be derived from the Inland Waterways 
Trust Fund (IWTF). With the passage of the Water Resources Reform and 
Development Act of 2014 (WRRDA 2014), the Olmsted Locks and Dam, Ohio 
River, Illinois and Kentucky project is now cost-shared 85 percent 
General funds and 15 percent IWTF. This change reduced the cost of this 
project to the navigation users by around $500 million, and increased 
the amount that Federal taxpayers will have to pay by an equivalent 
amount. In the ABLE Act, the Congress also increased the tax on diesel 
fuel used in commercial transportation on certain of the inland 
waterways. As a result of both of these changes, over the next few 
years there will be somewhat more money in the IWTF to support the 
user-financed share of inland waterways capital investments.
    The Administration has proposed legislation to reform the way that 
we finance capital investments for navigation on the inland waterways. 
The Administration's proposal includes a new user fee to produce 
additional revenue from the users to help finance long-term future 
capital investments in these waterways to support economic growth. We 
would like to work with the Congress to enact this legislation.
    The Corps also is working to develop a Capital Investment Program 
for the inland waterways. It will coordinate this effort with 
stakeholders and the Inland Waterways Users Board to provide an 
opportunity for their input. The process will include development of 
objective nationwide criteria to provide a framework for deciding which 
capital investments should have priority for funding from a national 
perspective.
                       operation and maintenance
    The Budget provides $2.71 billion for Operation and Maintenance, 
with $1.08 billion for operation and $1.44 billion for maintenance, and 
an additional $186 million for remaining items. This encompasses a wide 
range of activities, from operating and maintaining our locks and dams 
to monitoring the condition of dunes and berms that reduce the risk of 
flooding in a hurricane from wave action and storm surges, running the 
Corps recreation facilities that are visited by millions of Americans 
each year, and helping us be responsible stewards of the lands 
associated with Corps projects and operate them in an increasingly 
sustainable fashion.
    For example, the Budget helps us maintain and improve our efforts 
on sustainability. We are reducing the Corps' carbon footprint by:
  --increasing renewable electricity consumption,
  --reducing greenhouse gas emissions,
  --and reducing non-tactical vehicle petroleum consumption.
    The Budget continues to support the Corps' actions to improve the 
sustainability of our facilities and projects, by participating in 
Energy Savings Performance Contracts, which are innovative tools that 
enable us to work with non-Federal partners in financing improvements 
that otherwise might be postponed due to competition for scarce Federal 
dollars, and which can help to make upgrades to our facilities in ways 
that have immediate positive impacts, such as by cutting power 
consumption from lighting and buildings.
    We are also making important investments to promote the sustainable 
management of the lands around Corps facilities; the Budget provides 
$2.3 million to update 22 of the Master Plans that govern how we manage 
our facilities, which will helps us make better decisions about how to 
use the land and keep it healthy, such as by combating invasive 
species.
Harbor Maintenance Trust Fund
    The Budget provides $915 million from the Harbor Maintenance Trust 
Fund (HMTF) to maintain coastal channels and related work, matching the 
highest amount ever budgeted. This includes $856 million from the O&M 
Account, $2 million from the Mississippi River & Tributaries account, 
and $57 million from the Construction account.
Levels of Service
    At some of our navigation projects, we have adopted changes to the 
level of service at low commercial use locks (those with less than 
1,000 commercial lockages per year). The Corps has worked with 
navigation stakeholders to reduce impacts to commercial users. 
Generally, commercial traffic will be able to continue to use the locks 
at certain times. The intent of this effort is to focus the available 
Federal resources on maintenance that will extend the service life of 
these or other navigation locks.
                        research and development
    Research, Development, and Technology is a component of the Science 
and Technology portfolio of the Corps and continues to address key 
strategic technology needs to inform policy-making and business 
processes. The fiscal year 2016 Budget includes $18.1 million for 
research and development. This funding will be used to extend the 
service life of water resources infrastructure through research, use of 
novel materials, and technology transfer. Research, Development, and 
Technology efforts address ways to maintain or improve the reliable and 
efficient operation of marine transportation, continued development of 
tools for flood and coastal storm preparation and recovery, and 
capabilities that address ecosystem restoration, sustainable 
environmental management, and changing environmental conditions.
                            remaining items
    The Budget includes $61 million in the Investigations account, $47 
million in the Construction account, and $186 million in the Operation 
and Maintenance account for remaining items.
    Annual funding for these remaining items is determined based on 
current needs, such as the increased focus on technical assistance to 
States and local communities to improve resilience to climate change.
    This year, the President's Civil Works Budget provides $31 million 
for the Corps to provide these resources to local communities, to 
improve their resilience to the impacts of climate change and sea level 
rise.
                           regulatory program
    The Budget includes a $5 million increase from the fiscal year 2015 
Budget level for the Regulatory program, which is necessary to 
implement Clean Water Act (CWA) rulemaking activities while maintaining 
staffing needs, adequate scientific and technologic support, and 
Regulatory strategic priorities. This increase is based on estimates 
derived from the EPA Economic Analysis to support revisions to the 
definition of waters of the United States and would support certain 
actions to facilitate implementation, such as changes to documentation 
forms, training, science and technology development, and public 
outreach. Without the increase over 2015 levels, resources could be 
shifted away from permit evaluation, affecting processing times and 
increasing the time it takes to render a permit decision.
         alternative financing and public-private partnerships
    As part of looking to the future of the Army's Civil Works program, 
we are considering potential tools to expand and strengthen our already 
strong partnerships, especially in the area of Alternative Financing. 
As part of this effort, we are actively talking with potential non-
Federal partners about their ideas for how we can work together and 
soliciting suggestions and best practices from others in the Federal 
Government with experience in this area.
    As part of this effort, we are considering new authorities, such as 
Section 5014 of the Water Infrastructure Finance and Innovation Act 
(WIFIA), and other parts of WRDDA 2014. We are focusing on 
understanding how we could structure programs to provide efficient 
forms of Federal assistance and partnership under authorities, 
including identifying potential challenges to implementation and what 
additional tools we may need to successfully engage in public-private 
partnerships. There are limitations on how such structures can be 
applied to the Civil Works program, but we are working on developing 
several pilots to flesh out opportunities associated with alternative 
financing.
    We are also considering other approaches to public-private 
partnerships, such as by expanding use of existing authorities. In some 
cases, non-Federal sponsors have expressed interest in contributing 
funds to enable work to occur more quickly than it could with just 
Federal funds. Before entering into an agreement to accept such funds, 
the Corps carefully evaluates its overall workload to ensure that 
execution of the proposed work will not adversely affect directly-
funded programs, projects and activities.
                       veterans curation program
    Finally, this Budget provides $6 million for the Corps' Veterans 
Curation Program, which was started in 2009 with support from the 
American Recovery and Reinvestment Act. This program offers veterans 
the opportunity to learn tangible work skills and gain experience by 
rehabilitating and preserving federally owned or administered 
archaeological collections found at Corps projects.
    Thank you all for attending today. General Bostick will provide 
further remarks on the Army Corps of Engineers 2016 Budget.

    Senator Alexander. Thank you, Secretary Darcy.
    Commissioner Lopez.

                       DEPARTMENT OF THE INTERIOR


                         Bureau of Reclamation

STATEMENT OF HON. ESTEVAN LOPEZ, COMMISSIONER

    Mr. Lopez. Thank you, Chairman Alexander, Ranking Member 
Feinstein, and members of the subcommittee. It is an honor and 
pleasure to appear before this subcommittee to discuss the 
President's fiscal year 2016 budget for the Bureau of 
Reclamation. I appreciate the time and consideration given to 
understanding Reclamation's budget, projects, and programs. I 
look forward to working collaboratively with you to continue to 
address complex water issues in the West. I have submitted 
detailed testimony for the record.
    Reclamation's overall fiscal year 2016 budget is $1.1 
billion. It allocates funds based on objective and performance-
based criteria designed to effectively implement Reclamation's 
programs and management responsibilities for its water and 
power infrastructure in the West. At this time, I would like to 
give you some highlights of that budget.
    The budget supports the Powering Our Future initiative by 
including $1.3 million to implement an automated data 
collection and archival system to aid in hydropower 
benchmarking, performance testing, and strategic 
decisionmaking; to investigate Reclamation's capability to 
integrate large amounts of renewable resources, such as wind 
and solar power to the electric grid; and to assist tribes in 
developing renewable energy sources.
    Reclamation's budget supports Interior's Strengthening 
Tribal Nations initiative, through endangered species recovery, 
rural water projects, and water rights settlement programs. The 
budget includes $112.5 million for the planning and 
construction of five recent Indian water rights settlements. 
Reclamation's Native American Affairs Program is funded at 
$10.9 million for activities with tribes, including technical 
assistance, Indian water rights settlement negotiations, and 
implementation of enacted settlements, as well as outreach to 
Tribes.
    The budget includes $36.5 million for rural water projects, 
of which $18 million is for the operation and maintenance of 
completed tribal systems. A remaining $18.5 million is for the 
continued construction of authorized projects, which benefit 
both tribal and nontribal communities.
    The budget supports the Engaging the Next Generation 
initiative by continuing to provide work and training 
opportunities by leveraging funding through agreements with 
conservation partnerships, such as the 21st Century 
Conservation Service Corps.
    The budget supports ecosystem restoration, providing $158 
million to operate, manage, and improve California's Central 
Valley Project (CVP), including $35 million in current 
appropriation for the San Joaquin Restoration Fund. Within the 
CVP total, the Trinity River Restoration Program is proposed at 
$11.9 million with an additional $1.5 million in the Central 
Valley Project Restoration Fund.
    The budget provides $437.7 million at a project level for 
water and power facilities operation, maintenance, and 
rehabilitation activities. Reclamation's highest priority is 
the safe, efficient, economic, and reliable operation of its 
facilities, ensuring system and safety measures are in place to 
protect those facilities and the public.
    The budget provides $88.1 million for Reclamation's Safety 
of Dams program, which includes $66.5 million to correct and 
identify safety issues, $20.3 million for safety evaluations of 
existing dams, and $1.3 million to oversee the Interior 
Department's Safety of Dams program.
    Consistent with the direction in the President's 2013 
Climate Action Plan, Reclamation is developing and implementing 
approaches for climate change adaptation to understand and 
effectively adapt to the risks and impacts of a changing 
environment on Western water management, including through 
Interior's WaterSMART program.
    Principal Deputy Assistant Secretary Gimbel is going to 
describe the WaterSMART program, so I won't repeat that here.
    The Science and Technology Program is funded at $16.6 
million for water resources research to improve capability to 
manage water resources under multiple stressors, including a 
changing climate. Reclamation is committed to working with its 
customers, Federal, State, and Tribal partners and other 
stakeholders to find ways to meet our challenging water 
resource demands in 2016 and into the future.
    This completes my statement. I would be happy to answer 
questions at the appropriate time.
    [The statement follows:]
                Prepared Statement of Hon. Estevan Lopez
    Thank you Chairman Alexander, Ranking Member Feinstein and members 
of this subcommittee for the opportunity to discuss with you the 
President's fiscal year 2016 budget for the Bureau of Reclamation.
    I appreciate the time and consideration this subcommittee gives to 
reviewing and understanding Reclamation's budget, projects, and 
programs and I look forward to working with the committee in the future 
as Reclamation continues to address water issues in the West. 
Reclamation is committed to prioritizing and implementing its overall 
program in a manner that serves the best interest of the American 
public.
    Reclamation's fiscal year 2016 budget sustains our efforts to 
deliver water and generate hydropower, consistent with applicable 
Federal and State law, in an environmentally responsible and cost-
efficient manner. It also supports the Administration's and Department 
of the Interior's (Department) priorities to ensure healthy watersheds 
and sustainable, secure water supplies; build a landscape-level 
understanding of our resources; celebrate and enhance America's great 
outdoors; power our future; strengthen tribal nations; and engage the 
next generation.
    The extreme and prolonged drought facing the Western States affects 
many major river basins in the Western States. The effects of the 
current drought on California's Sacramento and San Joaquin River 
Basins, water, its agricultural economy, and its communities are 
particularly acute. Another basin crucial for seven States and a number 
of Native American Tribes--in addition to two countries--is the 
Colorado River Basin. Nearly 35 million people rely on the Colorado 
River for some, if not all, of their municipal and industrial needs. 
The Basin is currently experiencing a historic drought that has not 
been witnessed in over 100 years of recorded history. Lake Mead, behind 
Hoover Dam on the Colorado River, has reached its lowest level since 
filled more than 75 years ago. Snowpack, which acts like reservoir 
storage for many western basins, is below normal in many areas.
    This budget addresses priorities by allocating funds based on 
objective and performance-based criteria to most effectively implement 
Reclamation's programs and its management responsibilities for its 
water and power infrastructure in the West. Climate variability 
adaptation, water supply, water conservation, improving infrastructure, 
sound science to support critical decisionmaking, and ecosystem 
restoration were balanced in the formulation of the fiscal year 2016 
budget. Reclamation continues to look at ways to more efficiently plan 
for the future challenges faced in water resources management and to 
improve the way it does business.
    This budget focuses on meeting National priorities for: Indian 
water rights settlements, ecosystem restoration, and healthy watersheds 
and sustainable, secure water supplies. In order to meet Reclamation's 
mission goals, we are building a landscape-level understanding of our 
resources and the protection and restoration of the aquatic and 
riparian environments influenced by our operations. Ecosystem 
restoration involves a large number of activities, including 
Reclamation's Endangered Species Act recovery programs, which directly 
address the environmental aspects of the Reclamation mission. This 
includes increased efforts to support Platte River Recovery to meet key 
timelines in the partnership with the States of Colorado, Nebraska, and 
Wyoming. Reclamation is engaged in several river restoration projects.
                      water and related resources
    The 2016 budget for Water and Related Resources, Reclamation's 
principal operating account, is $805.2 million. The fiscal year 2016 
budget shifts $112.5 million from this account to establish a separate 
Indian Water Rights Settlement Account and $35.0 million for a separate 
discretionary account within the San Joaquin River Restoration Fund.
    The 2016 budget includes a total of $367.4 million at the project 
and program level for water, energy, land, and fish and wildlife 
resource management and development activities. Funding in these 
activities provides for planning, construction, water sustainability 
activities, management of Reclamation lands, including recreation 
areas, and actions to address the impacts of Reclamation projects on 
fish and wildlife.
    The budget also provides a total of $437.7 million at the project 
level for water and power facility operations, maintenance, and 
rehabilitation activities. Reclamation emphasizes safe, efficient, 
economic, and reliable operation of facilities, ensuring systems and 
safety measures are in place to protect the facilities and the public. 
Providing adequate funding for these activities continues to be one of 
Reclamation's highest priorities.
     highlights of the 2016 budget for water and related resources
    I would like to share with the committee several highlights of the 
Reclamation budget. Reclamation's budget continues to promote and 
support efficient water management, increased renewable energy 
production, the construction of new infrastructure and sound 
maintenance of existing facilities, restoration of aquatic 
environments, and the continued use of applied science and new 
technologies to help ensure sustainable water deliveries and energy 
production. As a result, Reclamation continues to play an important 
role in providing a strong foundation for economic activity across the 
American West.
    WaterSMART Program--One method Reclamation employs to stretch water 
supplies in the West and prepare for these ongoing challenges is the 
WaterSMART (Sustain and Manage America's Resources for Tomorrow) 
Program. The programs included in WaterSMART are collaborative in 
nature and work to effectively achieve sustainable water management. 
WaterSMART Grants, Title XVI Water Reclamation and Reuse, and the Water 
Conservation Field Services Program, along with other Reclamation 
activities, support the Department's Priority Goal for Water 
Conservation. The Basin Studies component of WaterSMART supports the 
Department's priority for Ensuring Healthy Watersheds and Sustainable, 
Secure Supplies.
    In the 2016 budget, Reclamation proposes to fund WaterSMART at 
$58.1 million. The WaterSMART components include: WaterSMART Grants 
funded at $23.4 million; the Basin Study Program funded at $5.2 
million; the Title XVI Water Reclamation and Reuse Program funded at 
$20.0 million; Water Conservation Field Services Program, funded at 
$4.2 million; the Cooperative Watershed Management Program, funded at 
$250,000; the Drought Response program, funded at $2.5 million, and the 
Resilient Infrastructure program, funded at $2.5 million.
    Rural Water Projects--Congress specifically authorized Reclamation 
to undertake the design and construction of six projects intended to 
deliver potable water supplies to specific rural communities and Tribes 
located primarily in Montana, New Mexico, North Dakota, and South 
Dakota. The 2016 Reclamation budget includes $36.5 million for rural 
water projects, $18.0 million of that total is for operation and 
maintenance of completed tribal systems and the remaining $18.5 million 
is for continued construction for authorized projects.
    Dam Safety Program--A total of $88.1 million is provided for 
Reclamation's Safety of Dams Program, which includes $66.5 million to 
correct identified safety issues. Funding also includes $20.3 million 
for safety evaluations of existing dams and $1.3 million to oversee the 
Interior Department's Safety of Dams Program.
    Site Security--A total of $26.2 million is provided for Site 
Security to ensure the safety and security of the public, Reclamation's 
employees, and key facilities. This funding includes $4.1 million for 
physical security upgrades at high risk critical assets and $22.1 
million to continue all aspects of Bureau-wide security efforts 
including law enforcement, risk and threat analysis, personnel 
security, information security, risk assessments and security-related 
studies, and guards and patrols.
    Powering Our Future--To support the Powering Our Future initiative, 
the 2016 Reclamation budget includes $1.3 million to implement an 
automated data collection and archival system to aid in hydropower 
benchmarking, performance testing and strategic decisionmaking; 
investigate Reclamation's capability to help integrate large amounts of 
renewable resources such as wind and solar into the electric grid; and 
work with Tribes to assist them in developing renewable energy sources. 
These important projects will assist in the production of cleaner, more 
efficient renewable energy.
    Strengthening Tribal Nations--The 2016 Reclamation budget supports 
the Strengthening Tribal Nations initiative through a number of 
activities and projects. For example, the budget includes $10.9 million 
for Reclamation's Native American Affairs Program in support of 
Reclamation activities with Tribes, including technical assistance, 
Indian Water Rights Settlement negotiations, implementation of enacted 
settlements, and outreach to Tribes; and $15.3 million to continue the 
operation and maintenance associated with the delivery up to 85,000 
acre-feet of water to the Ak-Chin Indian Community. Ongoing authorized 
rural water projects also benefit both tribal and non-tribal 
communities. Projects in the fiscal year 2016 budget benefiting Tribes 
include the rural water component of the Pick-Sloan Missouri Basin 
Program, Garrison Diversion Unit; Fort Peck Reservation/Dry Prairie; 
and Rocky Boy's/North Central Montana; and operation and maintenance 
funding only for tribal features of the Mni Wiconi Project following 
completion of construction. Numerous other projects and programs, such 
as the Columbia/Snake River Salmon Recovery Program, Klamath Project, 
and the Yakima River Basin Water Enhancement Project also benefit 
Tribes. In 2016, $112.5 million for planning and construction of five 
recent Indian Water Rights Settlements is being proposed in a new 
separate account as described below.
    Ecosystem Restoration--To meet Reclamation's mission goals of 
securing America's energy resources and managing water in a sustainable 
manner for the 21st century, our programs also focus on the protection 
and restoration of the aquatic and riparian environments influenced by 
our operations. Ecosystem restoration involves many activities, 
including Reclamation's Endangered Species Act recovery programs, which 
directly address the environmental aspects of the Reclamation mission. 
In 2016, a total of $122.1 million in Reclamation's budget directly 
supports the goals of the America's Great Outdoors Program, through 
local and basin-wide collaboration in watershed partnerships.
    The budget has $24.4 million for Endangered Species Act Recovery 
Implementation programs including $17.5 million in the Great Plains 
Region to implement the Platte River Endangered Species Recovery 
Implementation program. Within California's Central Valley Project, 
$11.9 million is for the Trinity River Restoration Program, with an 
additional $1.5 million from the Central Valley Project Restoration 
Fund.
    Many other projects and programs also contribute to ecosystem 
restoration including the Lower Colorado River Multi-species 
Conservation Program, Middle Rio Grande Endangered Species Act 
Collaborative Program, the Columbia/Snake River Salmon Recovery 
Program, and the Yakima River Basin Water Enhancement Project.
    Engaging the Next Generation--By September 30, 2017, the Department 
of the Interior will provide 100,000 work and training opportunities 
over four fiscal years, 2014 through 2017, for individuals ages 15 to 
35 to support the mission of the Department. In fiscal year 2016, 
Reclamation will continue to provide work and training opportunities by 
leveraging funding through agreements with 21st Century Conservation 
Service Corps partners and through other conservation partnerships.
    Climate Change Adaptation--Consistent with the direction in the 
President's 2013 Climate Action Plan, Reclamation is developing and 
implementing approaches to understand, and effectively adapt to, the 
risks and impacts of a changing environment on western water 
management. Some examples include:
  --The Basin Study Program takes a coordinated approach to assess 
        risks and impacts; develop landscape-level science; communicate 
        information and science to other entities and agencies; and 
        work closely with stakeholders to develop adaptation strategies 
        to cope with water supply and demand imbalances in a 
        collaborative manner.
  --The Drought Response Program will implement, under existing 
        authorities, a comprehensive new approach to drought planning 
        and will implement actions to help communities manage drought 
        and develop long-term resilience strategies.
  --Through the Resilient Infrastructure Program, Reclamation will 
        proactively maintain and improve existing infrastructure for 
        system reliability, safety, and efficiency for water 
        conservation to prepare for extremes and to support healthy and 
        resilient watersheds. Reclamation will continue to develop, 
        implement, and test an enhanced decisionmaking criteria 
        framework for selecting resilient infrastructure investments 
        and will identify opportunities to integrate operational 
        efficiencies more compatible with climate variability 
        adaptation goals, as part of the Bureau's ongoing 
        infrastructure investments.
  --Reclamation's Science and Technology Program conducts water 
        resources research to improve capability for managing water 
        resources under multiple stressors, including a changing 
        climate. This research agenda will collaborate with and 
        leverage the capabilities of the Interior Climate Science 
        Centers.
  --Reclamation's WaterSMART Grants, Water Conservation Field Services, 
        and Title XVI Programs are enabling the West to better adapt to 
        the impacts of a changing environment by helping to conserve 
        tens of thousands of acre-feet of water each year in urban and 
        rural settings, and on both large and small scales.
    The 2016 Water and Related Resources budget provides $123.0 million 
to operate, manage, and improve California's Central Valley Project. 
The next three accounts are also related to California water and 
restoration.
                   san joaquin river restoration fund
    Reclamation proposes $35.0 million of current funds for the San 
Joaquin River Restoration Fund account in 2016. The 2016 budget funds 
activities consistent with the settlement of Natural Resources Defense 
Council v. Rodgers as authorized by the San Joaquin River Restoration 
Settlement Act. The Act includes a provision to establish the San 
Joaquin River Restoration Fund to implement the provisions of the 
Settlement. The Settlement's two primary goals are to restore and 
maintain fish populations, and restore and avoid adverse impacts to 
water supplies. Under the Settlement, the legislation provides for 
nearly $2.0 million in annual appropriations from the Central Valley 
Project Restoration Fund for this purpose.
                central valley project restoration fund
    The 2016 budget includes a total of $49.5 million for the Central 
Valley Project Restoration Fund (CVPRF). This amount is determined on 
the basis of a 3-year rolling average not to exceed $50.0 million per 
year and indexed to 1992 price levels. These expenditures are offset by 
collections estimated at $49.5 million from mitigation and restoration 
charges authorized by the Central Valley Project Improvement Act.
                    california bay-delta restoration
    The 2016 budget provides $37.0 million for California Bay-Delta 
Restoration, equal to the 2015 budget. The account focuses on the 
health of the Bay-Delta ecosystem and improving water management and 
supplies. The budget will support the coequal goals of environmental 
restoration and improved water supply reliability, under the following 
program activities including: $1.7 million for a Renewed Federal State 
Partnership, $7.2 million for Smarter Water Supply and Use, and $28.1 
million for Habitat Restoration. These program activities are based on 
the Interim Federal Action Plan for the California Bay-Delta issued 
December 22, 2009.
                    indian water rights settlements
    In 2016, Reclamation will enhance support of tribal nations. The 
2016 budget proposes $112.5 million for Indian Water Rights Settlements 
(IWRS), in a new account of the same name. Reclamation is proposing 
establishment of an Indian Water Rights Settlements account to assure 
continuity in the construction of the authorized projects, and to 
highlight and enhance transparency in handling these funds. This 
account is proposed to cover expenses associated with the four Indian 
water rights settlements contained in the Claims Resolution Act of 2010 
(Public Law 111-291) and the Navajo-Gallup Water Supply Project within 
Title X of the Omnibus Public Land Management Act of 2009 (Public Law 
111-11).
    Of this amount, $6.0 million is for the Aamodt Settlement (Pueblos 
of Nambe, Pojoaque, Tesuque and San Ildefonso in New Mexico); $12.8 
million for the Crow Settlement (Crow Tribe in Montana); $89.7 million 
for the Navajo-Gallup Settlement (Navajo Nation in New Mexico); and 
$4.0 million for the Taos Settlement (Taos Pueblo in New Mexico). These 
settlements will provide permanent water supplies and offer economic 
security for the Tribes and pueblos described above. The agreements 
will build and improve reservation water systems, rehabilitate 
irrigation projects, construct a regional multi-pueblo water system, 
and codify water-sharing arrangements between Indian and neighboring 
communities.
    Construction will take place over time, and annual funding 
requirements will vary from year to year. Per the Claims Resolution Act 
of 2010, in addition to the discretionary funding included in this 
budget, additional mandatory funds have already been made available to 
Reclamation, in order to realize the deadlines mandated in the 
settlement acts. The White Mountain Apache Tribe activities will 
continue in 2016 using mandatory funds.
                       policy and administration
    The 2016 budget for Policy and Administration, the account that 
finances Reclamation's central and regional management functions is 
$59.5 million. The account supports activities necessary to the 
management and administration the of the bureau which are not 
chargeable directly to a specific project or program, such as corporate 
oversight, policy and overall program management, budget preparation, 
finance and procurement, and management of safety and health, human 
resources, and information technology.
                        permanent appropriations
    The total permanent appropriation of $117.4 million in 2016 
primarily includes $114.2 million for the Colorado River Dam Fund. 
Revenues from the sale of Boulder Canyon power are placed in this fund 
and are available without further appropriation to pay for operation 
and maintenance of the project and other costs.
         2016 through 2018 priority goal for water conservation
    Priority goals are a key element of the President's agenda for 
building a high-performing government. The priority goals demonstrate 
that our programs are a high value to the public and they reflect 
achievement of key Departmental milestones. These goals focus attention 
on initiatives for change that have significant performance outcomes, 
which can be clearly evaluated, and are quantifiable and measurable in 
a timely manner. Reclamation's participation in the Water Conservation 
priority goal helps to achieve these objectives.
    The 2016 budget will enable Reclamation to achieve water 
conservation capability for agricultural, municipal, industrial, and 
environmental uses in the western United States by 975,000 acre-feet 
(since 2009) through September 30, 2016. This will be accomplished 
through the use of the WaterSMART Program to assist communities in 
stretching water supplies while improving water management and 
increasing the efficient use of water. Reclamation has already exceeded 
the prior goal of 840,000 acre-feet by the end of fiscal year 2015 by 
partnering with States, Indian Tribes, irrigation and water districts 
and other organizations with water or power delivery authority to 
implement programs resulting in water conservation.
    Reclamation is participating in the following priority goals to 
help achieve the objectives set out by the President: Water 
Conservation, Renewable Energy, Climate Adaption, and Youth Employment 
and Training. The Department is currently employing a set of internal 
measures and milestones to monitor and track achievement of the 
Priority Goals.
    Reclamation is requesting two significant changes in authorizations 
for which language is included in our fiscal year 2016 request. The 
first is to extend the California Federal Bay-Delta Authorization Act, 
as amended, from 2016 to 2018, so the CALFED program can continue its 
critical mission--even more important given the current drought. 
Language is also included as part of the 2016 Budget to increase the 
authorized appropriations ceiling of Section 9504(e) of the Secure 
Water Act of 2009 from $300 million to $400 million. The latter 
provides much of the funding for Reclamation's WaterSMART program, 
which is one of our most effective programs.
    Importantly, the 2016 budget demonstrates Reclamation's commitment 
to addressing the water and power demands of the West in a fiscally 
responsible manner. This budget continues Reclamation's emphasis on 
cost-effectively managing, operating, and maintaining its public 
infrastructure, and in delivering water and power in an environmentally 
and economically sound manner, in the interest of the American public. 
Reclamation is committed to working with its customers, States, Tribes, 
and other stakeholders to find ways to balance and support the mix of 
water resource demands in 2016 and beyond.
                               conclusion
    This completes my statement. I would be happy to answer any 
questions.

    Senator Alexander. Thank you, Commissioner Lopez.
    Ms. Gimbel.
STATEMENT OF JENNIFER GIMBEL, PRINCIPLE DEPUTY 
            ASSISTANT SECRETARY FOR WATER AND SCIENCE
    Ms. Gimbel. Good afternoon, Chairman Alexander, Senator 
Feinstein, members of the subcommittee. I am Jennifer Gimbel, 
Interior's Principal Deputy Assistant Secretary for Water and 
Science. I appreciate the opportunity to talk with you about 
Water and Related Programs at the Department of the Interior.
    My office oversees the Bureau of Reclamation and USGS 
activities. I am particularly pleased today to join Senator 
Udall in introducing Commissioner Estevan Lopez. We are 
fortunate to have someone of the caliber and with the 
experience of Commissioner Lopez at the helm of the Bureau of 
Reclamation.
    I will highlight just a few of our overall programs with 
respect to water challenges across the country.
    It is well known that we are facing unprecedented pressure 
on our water supplies all across the Nation, but particularly 
in the West. We continue to experience drought not only in 
California but on the Colorado River and the Rio Grande River 
basins.
    Population growth, aging infrastructure, a changing 
climate, increased domestic energy development, and recognition 
of ecosystem needs are all challenging the already scarce 
supplies. This subcommittee is well aware of these challenges.
    This administration continues to put high priority on 
addressing these challenges both in the short- and long-term. 
The specific focus of Interior's WaterSMART program is to 
secure and stretch water supplies and to provide tools that 
allow water managers to continue to move toward sustainability.
    To date, Reclamation has helped to create an additional 
supply of more than 860,000 acre-feet of water for the West. 
That is enough water to supply nearly 1 million families of 
four for a year.
    In 2016, Reclamation proposes to fund WaterSMART at $58.1 
million. Those programs include $23.4 million for the 
WaterSMART water efficiency grants, $20 million for Title XVI 
Water Reclamation and Reuse funding, and $5.2 million for Basin 
Studies, which have broad State and local support.
    Basin Studies are an excellent tool that allows Reclamation 
to work with water managers and other water interests by 
convening a collaborative and proactive analysis of particular 
watersheds and working with stakeholders to identify options 
and strategies to respond to changing needs and anticipated 
shortages.
    Although not under your jurisdiction, I thought you would 
be interested to know that USGS is asking for $31 million under 
the WaterSMART program to help understand the quantity and 
quality of our water resources nationwide.
    This year California is in the bull's eye with respect to 
drought. Interior, with the Departments of Agriculture and 
Commerce, is continuing to work with the State of California to 
pursue projects that might help stretch California water 
supplies. In December of this year, Reclamation and partner 
agencies developed a draft Interagency 2015 Drought Strategy. I 
know Senator Feinstein is very familiar with this strategy.
    On the Colorado River, Reclamation has been working with 
municipal providers in Arizona, California, Nevada, and 
Colorado on a Colorado River System Conservation Pilot Program 
to begin to address long-term imbalance on the Colorado River.
    Finally, the Central Utah Project Completion Act Office, or 
CUPCA, is under the auspices of the Office of Water and 
Science. In this budget, we are no longer proposing that CUPCA 
be integrated into Reclamation. We will keep it a separate 
program in Interior, and we are requesting $7.3 million for the 
budget for that this year.
    The budgets of the Department of the Interior and the 
Bureau of Reclamation support these water priorities. We very 
much appreciate the support this subcommittee has shown for 
Reclamation's mission and projects over the year. That 
concludes my oral statement.
    [The statement follows:]
                 Prepared Statement of Jennifer Gimbel
    Chairman Alexander, Ranking Member Feinstein and members of this 
subcommittee, I am pleased to appear before you today to discuss the 
President's fiscal year 2016 budget for the Department of the 
Interior's Bureau of Reclamation and Central Utah Project Completion 
Act. I would like to thank the members of this subcommittee for your 
efforts to enact a fiscal year 2015 appropriation, and for your ongoing 
support for our initiatives.
    The 2016 budget request is $13.2 billion for the Department of the 
Interior. The Secretary will testify later this month before various 
Congressional committees on the Department's request. I am here today 
to discuss the President's fiscal year 2016 budgets for the Bureau of 
Reclamation and the Central Utah Project Completion Act, which is a 
Department of the Interior program that reports to the Office of Water 
and Science. My office is also responsible for the United States 
Geological Survey, which is funded by the Interior and Environment 
Subcommittee. As in the past, we are thankful to the subcommittee for 
your continued support of these programs.
                              introduction
    The Department of the Interior's mission affects the lives of all 
Americans. Interior has stewardship of 20 percent of the Nation's 
lands, oversees the responsible development of 21 percent of U.S. 
energy supplies, is the largest supplier and manager of water in the 17 
western States, maintains relationships with 566 federally recognized 
Tribes, and provides services to more than two million American Indian 
and Alaska Native peoples. This budget enables the Department to carry 
out its important missions in resource stewardship, balanced 
development of energy and mineral resources, water management and 
conservation, providing opportunities to youth and veterans, resilience 
in the face of a changing climate, advancement of self-determination 
and stronger communities for tribal Nations, and fulfilling commitments 
to Insular communities. The Interior Department's fiscal year 2016 
budget maintains core capabilities to meet these responsibilities and 
proposes investments in key priorities.
   ensuring healthy watersheds and sustainable, secure water supplies
    The 2016 budget addresses the Nation's water challenges through 
investments in water conservation, sustainability, and infrastructure 
critical to the arid Western United States and its fragile ecosystems.
Drought
    Ongoing and multi-year droughts in California and across other 
Western States are resulting in water shortages impacting agriculture, 
municipalities and ecosystem functions and underscoring the importance 
of improving the resilience of communities to the effects of climate 
change. In 2014, Reclamation awarded $17.8 million in WaterSMART water 
and energy efficiency grants and $20.0 million in Title XVI Water 
Reclamation and Reuse projects that contribute significantly to drought 
response and resilience. In November 2014, Reclamation awarded $9.2 
million for 131 research projects within five research priority areas. 
The research projects are leveraged with partners providing $3.8 
million in non-Federal cost sharing.
    The Departments of the Interior, Agriculture, and Commerce are 
continuing their work with the State of California to accelerate water 
transfers and exchanges, provide operational flexibility to store and 
convey water, expedite environmental review and compliance actions, and 
to pursue new or fast-track existing projects that might help stretch 
California's water supplies. In December 2014, Reclamation and partner 
agencies developed a draft Interagency 2015 Drought Strategy for the 
Central Valley Project (CVP) and State Water Project (SWP) which 
outlines a preliminary framework for the Drought Contingency Plan for 
Operations of the CVP and SWP, the Drought Contingency Biological 
Monitoring Plan, and other Drought-Related Measures.
    The U.S. Geological Survey is providing California managers and 
residents with timely and meaningful data to help decisionmaking and 
planning for the State's water resources as drought affects stream flow 
across the State, reducing reservoir replenishment, and increasing 
groundwater depletion. In December 2014, the USGS released an 
interactive California Drought visualization Web site to provide the 
public with atlas-like, State-wide coverage of the drought and a 
timeline of its impacts on water resources.
    In the Colorado River Basin, Reclamation is working with the seven 
Basin States to craft new strategies to ensure critical infrastructure, 
such as the Hoover and Glen Canyon Dams, continues to operate as 
intended and to assist agricultural and municipal users in addressing 
current and future water challenges. In July 2014, Reclamation and 
municipal water providers in Arizona, California, Nevada, and Colorado 
signed a landmark water conservation agreement called the Colorado 
River System Conservation Program to address the long-term imbalance on 
the Colorado River caused by years of drought conditions.
    In the Klamath River Basin, Interior is working with other Federal 
agencies, Oregon, California, Tribes and local stakeholders to 
implement authorized actions designed to alleviate the impacts of 
drought by reducing water demand in conjunction with activities that 
improve habitat, and restore fisheries.
WaterSMART
    The budget includes $89.0 million for WaterSMART programs in 
Reclamation and the U.S. Geological Survey, a $22.1 million increase 
from 2015, to assist communities in stretching water supplies and 
improving water management. This funding supports the Department's goal 
to increase by 975,000 acre-feet, the available water supply for 
agricultural, municipal, industrial, and environmental uses in the 
Western United States through water-conservation programs by the end of 
fiscal year 2016. The budget includes $5.2 million for Reclamation's 
Basin Studies program. The WaterSMART program's Basin Study component 
leverages funding and technical expertise from the Bureau of 
Reclamation in a collaborative effort with knowledgeable State and 
local water practitioners. Basin Studies aim to identify practical, 
implementable solutions to existing or anticipated water shortages and 
to support related efforts to ensure sustainable water supplies. The 
Basin Studies conducted to date advanced the state of knowledge about 
the dynamics of each particular watershed and generated a collective 
expertise to formulate constructive actions to address imbalances.
    In addition to $1.1 billion requested for the Bureau of Reclamation 
within the jurisdiction of the Energy and Water Subcommittee, the 
budget also requests over $220 million for the U.S. Geological Survey's 
water programs to provide scientific monitoring, research, and tools to 
support water management across the Nation. USGS research conducted 
under the Department's WaterSMART program includes characterizing long-
term trends in streamflow, assessing groundwater availability, 
quantifying water losses to the atmosphere, estimating water use 
requirements, and developing tools to understand the ecological impacts 
of changes in water availability.
                          powering our future
    To encourage resource stewardship and development objectives, 
Interior is shifting from a reactive, project by project resource 
planning approach to more predictably and effectively managing its 
lands and resources. Interior's focus on powering America's energy 
future supports an all-inclusive approach including conventional and 
renewable resources on the Nation's public lands.
                               hydropower
    Hydropower is a very clean and efficient way to produce energy and 
is a renewable resource. Each kilowatt-hour of hydroelectricity is 
produced at an efficiency of more than twice that of any other energy 
source. Further, hydropower is very flexible and reliable when compared 
to other forms of generation. Reclamation maintains 475 dams and over 
8,000 miles of canals and owns 76 hydropower plants, 53 of which are 
operated and maintained by Reclamation. On an annual basis, these 
plants produce more than 40 billion kilowatt hours of electricity, 
enough to meet the entire electricity needs of over 3.5 million 
households.
    The Department signed a Memorandum of Understanding (MOU) with the 
Department of Energy and U.S. Army Corps of Engineers in 2010 to 
increase collaboration among those agencies and strengthen the long-
term relationship among them to prioritize the generation and 
development of sustainable hydropower. This Administration is committed 
to increasing the generation of environmentally sustainable, cost-
effective hydropower on existing dams and conduits for our national 
electricity supplies as efficiently as possible. Activities under this 
MOU have been ongoing, and have resulted in accomplishments such as 
assessments of potential conventional and pumped-storage hydropower 
resources on Federal and non-Federal lands and facilities; a 
collaborative basin-scale pilot project in the Deschutes Basin (Oregon) 
and the Bighorn Basin (Wyoming and Montana); and grant opportunities 
for research and development of new technologies.
    Reclamation is supporting non-Federal development of hydropower 
through Lease of Power Privilege (LOPP), and updated the LOPP Directive 
and Standard in 2014 to incorporate the Bureau of Reclamation Small 
Conduit Hydropower Development and Rural Jobs Act (PL 113-24) of 2013. 
As a result of Reclamation's focus on non-Federal hydropower 
development and the implementation of PL 113-24, there are now 9 LOPP 
hydropower projects online with 19 additional projects moving through 
the process. The LOPP process allows new hydropower development while 
preserving, maintaining, and sometimes enhancing environmental 
protections to ensure that any new projects will be developed in an 
ecologically sensitive and environmentally sustainable manner.
    Additionally, Reclamation is working with Federal and non-Federal 
partners to restore species in ecosystems that were damaged by past 
Federal multipurpose dam construction. For example, the budget includes 
$18 million for restoration of endangered salmon on the Columbia and 
Snake Rivers to ensure that the Federal Columbia River Power System can 
meet Endangered Species Act requirements and Reclamation's Pacific 
Northwest Region can continue to generate approximately 23.7 million 
MWh of electricity (net) per year.
    To further support the Powering Our Future initiative, the 2016 
Reclamation budget includes $1.3 million to implement an automated data 
collection and archival system to aid in hydropower benchmarking, 
performance testing and strategic decisionmaking; investigate 
Reclamation's capability to integrate large amounts of energy generated 
by renewable resources such as wind and solar into the electric grid; 
and work with Tribes to assist them in developing renewable energy 
sources. These important projects will assist in the production of 
cleaner, more efficient, ecologically sensitive, renewable energy.
         strengthening tribal nations--indian water settlements
    The Department's programs maintain strong and meaningful 
relationships with native and insular communities, strengthen the 
government-to-government relationships with federally recognized 
Tribes, promote efficient and effective governance, and advance self-
governance and self-determination. The 2016 budget makes significant 
new investments to improve Interior's capacity to work with and support 
Tribes in the resolution of their water rights claims and develop 
sustainable water sharing agreements and management activities.
    Interior's investments in Indian Water Settlements total $244.5 
million in Reclamation and Indian Affairs for technical and legal 
support and for authorized water settlements, an increase of $73 
million over 2015. This includes $40.8 million for Interior-wide 
technical and legal support, and $203.7 million for settlement 
implementation, of which $136.0 million is funded by the Bureau of 
Reclamation. In 2016, Interior will complete the funding requirements 
for the Taos Pueblo Indian Water Rights Settlement Act.
                      engaging the next generation
    By September 30, 2017, the Department of the Interior will provide 
100,000 work and training opportunities over 4 fiscal years, 2014 
through 2017, for individuals ages 15 to 35 to support the mission of 
the Department. To meet the Secretary's challenge to Engage the Next 
Generation, Reclamation will strive to expand youth programs and 
partnerships to accomplish high priority projects, promote quality 
participant experiences, and provide pathways to careers for young 
people through temporary positions with the bureau, as conservation 
interns, or as part of conservation work crews in conjunction with 
partnering organizations.
                          central utah project
    The Central Utah Project Completion Act (CUPCA), Titles II--VI of 
Public Law 102-575, provides for completion of the Central Utah Project 
(CUP) by the Central Utah Water Conservancy District (District). The 
Act also authorizes funding for fish, wildlife, and recreation 
mitigation and conservation; established an account in the Treasury for 
deposit of these funds and other contributions; established the Utah 
Reclamation Mitigation and Conservation Commission to coordinate 
mitigation and conservation activities; and provides for the Ute Indian 
Rights Settlement.
    The 2016 budget for the Department of the Interior's CUPCA program 
is $7.3 million. Of this amount, $6.3 million will be expended from 
this account and $1.0 million will be transferred to the Utah 
Reclamation Mitigation and Conservation Account for use by the Utah 
Reclamation Mitigation and Conservation Commission. The 2016 budget 
provides funding to continue the partnership with the Central Utah 
Water Conservancy District in the ongoing construction of the Utah Lake 
System facilities. The 2016 budget will also continue Interior's 
required program oversight activities and endangered species recovery 
program implementation through the Department's CUPCA Office.
                               conclusion
    Thank you for the opportunity to testify on behalf of the 
President's 2016 budget for the Department of the Interior and the 
Bureau of Reclamation. We have the opportunity to positively impact our 
Nation's future for all generations through wise investments, 
collaboration, and new and innovative ideas to meet the future needs 
for the growth and prosperity of our Nation.
    I look forward to working with the committee to implement this 
budget. This concludes my testimony and I am happy to answer questions.

    Senator Alexander. Thank you very much.
    Now we will begin a round of 5-minute questions. We have a 
vote at 3:45. What we will do is just go right on through the 
vote, and I will go over and vote at about 3:45. We will just 
pass the gavel around so we can keep going and give every 
Senator a chance to ask his or her questions.

                      INLAND WATERWAYS TRUST FUND

    Let me begin, Ms. Darcy, if I may, with you. I am 
disappointed that there is no funding in the President's budget 
to begin replacement of Chickamauga Lock. But let me put it on 
a more national scope than that.
    Two or 3 years ago, several of us, Senator Graham, I, 
others, sat down with the staffs of various Senators and said 
let's put aside all the practical problems. What do we need to 
do for a great country to have the kind of inland waterway 
system that it should have? And the staff came back with a 
plan. We talked with the Vice President about it and talked it 
around ourselves. In fact, we have gotten it done.
    As I mentioned earlier, number one, we passed a law that 
excluded the Olmsted Lock or reduced the amount of money we 
spent on the Olmsted Lock, because it was soaking up all the 
money available for the inland waterway. Second, we worked with 
the industry and with the administration and we established a 
priority list of which inland water projects should go in 
order, so it wouldn't be just a log-rolling exercise by 
senators and congressmen. Then, third, we enacted a user fee 
increase. In other words, the commercial users of the inland 
waterways volunteered, and we approved at the end of last year 
increasing the amount of money they pay to go through the 
locks.
    So we did all three of those things, and all three of those 
things together should make it possible for the Corps over the 
next several years to do what we need to do in our country for 
inland waterways.
    However, the Corps' budget does not propose to spend all of 
the money that is available in the Inland Waterways Trust Fund, 
specifically $57 million is not being spent, according to 
information we have from your staff. So my question is, why did 
we go to all the trouble to increase the user fee if you are 
not going to spend it?
    Ms. Darcy. Well, Senator, we are spending some of it. As 
you know, the Inland Waterways Trust Fund funds every other 
project but Olmsted on a 50-50 cost share. And the overall 
budget number for us within our construction account needs to 
be able to meet that other cost share.
    In the case of Olmsted, we need to find 85 percent. And the 
other projects that are funded in this year's budget 
Monongahela Lock 2, 3, and 4, we had to find the 50 percent 
within the rest of the budget.
    Senator Alexander. You are saying you don't have enough 
appropriated money to match the trust fund money?
    Ms. Darcy. In the President's proposed budget, we do not 
have an equal amount.
    Senator Alexander. Well, it is disappointing to me and hard 
to go back to the people whose taxes we raised, basically, and 
say we took your money but we are just going to put it on the 
shelf for a while. I would like to find a way, if I may, 
working with you to be able to fully fund the plan for building 
a great inland waterway system in this country. It will take 
several years.

                            CHICKAMAUGA LOCK

    General Bostick, let me go to you. It is my understanding 
that between $3 million and $9 million could be appropriately 
used this year to restart work on Chickamauga Lock.
    For example, with just $3 million, the Corps could award a 
base contract to get started on the highest priority and 
earliest work, which is grouting the cofferdam. I am getting 
down to details here, but that is what we need to do. If $6 
million were available, the Corps could also start anchoring 
the cofferdam and construct a small pile wall.
    In other words, if you had $3 million, or if you had $6 
million, and you decided to spend it, you could begin to do 
work on the Chickamauga Lock, which is the fourth highest 
priority, which we are going to do, and which is in danger of 
being closed if we don't do this.
    My understanding is also that your work plan does not 
obligate nearly $6 million that could be spent on the lock or 
other critical waterway projects. So why don't you spend the 
available $6 million to get started on the Chickamauga Lock, 
General Bostick?
    General Bostick. First, Mr. Chairman, I would like to thank 
you and the subcommittee for the work you have done. I think 
all of those efforts to try to help our inland waterways are 
going to pay off in the future, and some immediately.
    From a bigger picture, part of what we have to do is really 
look at the capital projects as a whole. And although we have 
priorities, we don't feel like we have done all of our work to 
properly assess those projects, and Chickamauga is one of them, 
on the economic benefits and the requirements that they have in 
maintenance.
    So we are completing this capital projects report. That 
should be done by the summer of this year. And I think that 
will help us get a framework on how we should spend the 
taxpayer dollars.
    The other thing I would address is on the work plan. There 
are opportunities in the months ahead to use that additional $6 
million. We will have, by the end of the month, provided some 
recommendations to Secretary Darcy, and she will work with the 
administration to determine the way ahead.
    Senator Alexander. Good. I have an opportunity to suggest 
for you for that $6 million. I understand what you are saying, 
but I hope you understand what I am saying. We have developed 
the plan. We worked with you. We think you are doing a good job 
with the money you have. But if we are going to raise that 
money from the commercial barge people, we ought to spend it. 
That is what it is for.
    And if we have a lock on the priority list and with $3 
million to $6 million we can move along with it, I would 
suggest we do it.
    My time is up. Senator Feinstein.

                   SAN FRANCISCO BAY SHORELINE STUDY

    Senator Feinstein. Thanks very much, Mr. Chairman. I am 
going to begin with a subject that I am very frustrated about, 
and that is the South San Francisco Bay shoreline study. I have 
had several conversations with Secretary Darcy about this, so, 
General Bostick, I would like to involve you in this, too.
    This bay line study was congressionally authorized in 2002. 
That is 13 years ago. The work began in 2005. The purpose was 
to recommend flood risk management and ecosystem restoration 
projects along South San Francisco Bay for Federal funding.
    The study continues to be a high priority for me and very 
frustrating.
    This portion of Santa Clara County shoreline is at great 
risk from floods due to storms and high tides. And sea level 
rise we know is going to occur in the future.
    So, more than 10 years have passed. The study is not done. 
In excess of $10 million has been spent. There was a 6-month 
delay in 2005, 2006. There was a dispute between the Corps and 
the local sponsors, who would be responsible for the mapping. 
Between 2006 and 2010, there was a 2-year delay. Local sponsors 
informed me that the Army Corps of Engineer's research and 
development center took twice as long, 4 years instead of 2 
years, and at twice the original cost, $4 million instead of $2 
million, to complete the floodplain maps.
    The project had to be re-scoped in January 2011 to focus on 
the Alviso area to avoid the project getting further delayed. 
There was then another 10-month delay between August 2013 and 
June 2014, when the Corps raised concerns about how the project 
would address sea level rise, even though the Corps had been 
aware of the design assumptions since March 2011.
    In mid-2014, I was told the chief's report would be done by 
July 2015. A few months later, the schedule again slipped to 
December 2015.
    During this long process, the lack of a completed chief's 
report has meant authorization of a potential project was 
missed in 2007 and 2014. And last week, we suffered another 
blow. The Corps unveiled its fiscal year 2015 work plan and 
2016 budget and no money, zero, was allotted to completion of 
this high-priority study.
    So can you tell me how you plan to finish the chief's 
report by December 2015 as promised without Federal funding in 
the 2015 work plan and the 2016 budget?
    General.
    General Bostick. We currently have funds on hand to 
continue to move the study forward.
    Senator Feinstein. Could you tell me how much?
    General Bostick. I would have to follow up with you on the 
exact amount.
    Senator Feinstein. Will you tell me how much?
    General Bostick. We can. I don't have that number now, 
Senator.
    Senator Feinstein. So it is your intention to continue with 
the study?
    General Bostick. We will continue the study. We will at 
some point need additional funds. As I talked about earlier, we 
would work with Secretary Darcy on recommendations on how work 
plan funds might be utilized.
    Senator Feinstein. So you will meet the December 2015 
deadline?
    General Bostick. We will. We will meet the December 2015 
deadline.
    Senator Feinstein. Shall I ask you to raise your right 
hand, and swear to God?
    General Bostick. If you want me to raise my right hand, I 
will do that, ma'am.
    Senator Feinstein. Got it.
    General Bostick. We are doing everything we can to stay on 
top of this.
    Senator Feinstein. Okay. It is really a high priority for 
that area. As you know, there is a lot of high-tech right on 
the water there. There are cities. There is a sewage treatment 
plant that serves 1 million people. It could be catastrophic if 
that area floods.
    General Bostick. I understand.
    Senator Feinstein. I am going to hold you to your word, 
General. Thank you.

                               SALT PONDS

    Now, while I have you, it has come to my attention that the 
Corps is performing some type of wetlands evaluation pertaining 
to salt ponds in the north end of San Francisco Bay near the 
Port of Redwood City. I discussed it with one of the generals 
this morning.
    Apparently, these salt ponds are being considered for some 
type of potential development, and the press has said that the 
Army Corps is about ready to say that certain parts of the bay 
behind a dike are not waters of the United States. It is my 
understanding that that differs with the EPA.
    It is a highly sensitive matter, and I would appreciate 
knowing what the Corps' position is. I intend to go down there 
and take a look myself next week.
    General Bostick. We haven't come to a conclusion, at this 
point. We are working with the EPA on this issue, and General 
Peabody has been out there. He is going out again next week, 
and will look at several sites and have an opportunity to talk 
about this.
    We are working very closely with EPA and Justice, to make 
sure we come to the appropriate conclusion on the way ahead.
    Senator Feinstein. Well, I would hope you would work with 
me. I am kind of the mother of that whole salt ponds situation. 
I got the funding. I got the State money. I got the private 
money to buy the land from Cargill. I know exactly what has 
been planned, and I am very concerned about this. What makes 
our whole area is the bay, and we do not want it filled.
    And I have the pleasure of speaking with General Peabody 
next week. It is my intention to come down there on Tuesday, 
General, at 11 o'clock, so I will take a look for myself.
    General Bostick. We will absolutely work closely with you 
on this, Senator.
    Senator Feinstein. Thank you very much.
    Senator Alexander. Thank you, Senator Feinstein.
    Senator Cochran.

                   MISSISSIPPI RIVER AND TRIBUTARIES

    Senator Cochran. Mr. Chairman, thank you very much for 
presiding over this hearing and providing leadership for our 
subcommittee. And my thanks for our panel coming here today to 
talk about the President's budget submission for the Army Corps 
of Engineers and the Bureau of Reclamation.
    I have put my statement in the record describing the 
steady, but sure decline of commitment from the Federal 
Government for its inland waterways system maintenance, 
projects such as the Mississippi River & Tributaries project, 
similar projects but smaller throughout the country that have 
come in for some of the lowest budget requests that I have seen 
since I have been in Washington. We started out poor, and we're 
getting poorer.
    I wonder what the reaction of the administrators are as to 
what kind of frustration you might be enduring, and what you 
can suggest to the subcommittee for ways to ameliorate or help 
minimize the practical consequences of this budget.
    I don't want to just fuss about it, but I would like to get 
into some of the specifics.
    For example, on the Mississippi River & Tributaries 
project, only $225 million is requested. That sounds like a big 
number, but guess what? That is more than $100 million below 
the average amount of funding provided by Congress over the 
last 30 years.
    What is your reaction, General, to the overview that this 
presents to our subcommittee?
    General Bostick. Senator, I can speak to it from a leader 
standpoint and from one who has to execute the mission that the 
country has asked us to do. It is challenging. It is very 
challenging for us to execute our mission with the funding 
levels that the taxpayers are able to afford and what the 
country is able to afford.
    We state what the priorities should be, and where the focus 
should be. But at the end of the day, when the President looks 
at the budget, when the Nation looks at the requirements across 
this country, priorities have to be set. And I am not privy to 
those. I respect all the decisions that are made.
    What I would say in our area is we have to look at how we 
become more efficient. I think we can become more efficient in 
how we use taxpayer dollars. I think that we have to look at 
alternative means of financing.
    You gave us the opportunity through WRRDA with public-
private partnerships. I don't think the Federal Government, 
even if it could pay all of the needs of the inland waterways--
and there are many needs that are there. I think we have to be 
part of the solution to be innovative and creative in how we 
move forward.

                   MISSISSIPPI DELTA REGION PROJECTS

    Senator Cochran. One other example of the budget request 
that is out of line with what has been the suggestion is the 
Yazoo Backwater projects in the Mississippi Delta region are 
also going to be subjected to substantial cuts. The combined 
annual benefits of the projects, by comparison, are roughly 
$77.7 million. But the budget submitted by the President, once 
again, doesn't request funding for the headwaters project or 
the Upper Yazoo project.
    But given the importance to the lives of the people of that 
region, and their property and the sustainability of the 
economy in the region, it makes it clear that something has to 
give or that project is going to be dead in the water.
    The Federal Government has invested more than $700 million 
up to this point in these projects. This is the construction 
phase now that is over 30 years in the making. But because of 
inadequate funding, it is going to be, as I said, dead in the 
water.
    I am going to ask you, if you can, to give the subcommittee 
the benefit of your suggestions, as to how we can compromise, 
if there is a way to come together with something less than had 
been requested in the budget by the Congress and the reality of 
how much you are likely to be permitted to spend by fiat of the 
Federal Government, after we are completed with this 
legislation.
    Are there other comments that maybe the administration's 
representative can give us some thought on?
    Ms. Darcy. One of the issues that General Bostick mentioned 
is one that we need to work on, collectively as a government, 
and that is finding public-private partnerships or other 
alternative financing mechanisms to try to meet some of the 
needs that remain unmet, both with Federal dollars and local 
dollars.
    I think one point, Senator, is that in the 2015 work plan, 
we did fund the Delta Headwaters in Mississippi.
    Senator Cochran. Mr. Chairman, my time is up.
    Senator Alexander. Thank you, Senator Cochran.
    At about 3:40, I am going to go vote and come right back, 
so we will just let the hearing go straight through. I will ask 
Senator Feinstein if she will wield the gavel during that 
period of time, then I will take it back in time for her to 
vote.
    Senator Merkley.

                 SMALL SUBSISTENCE AND EMERGING HARBORS

    Senator Merkley. Thank you, Mr. Chairman. Thank you all for 
your testimony.
    Assistant Secretary Darcy, on our coast in Oregon, we have 
a lot of very small ports that have a whole variety of their 
economy affected by crabbing, shrimp, groundfish, salmon, 
tourists, whale watching. Boats go out for every possible 
reason. But the dredging of these ports was in the President's 
proposed fiscal year 2015 budget, but they have all been zeroed 
out for fiscal year 2016.
    I am assuming, just to kind of shorten the conversation, 
that the assumption is that here in Congress we will do a small 
port carve-out as we have for the last few years, and then some 
funds will be redistributed to the high dredging or high-need 
areas. Is that the plan?
    Ms. Darcy. No, Senator. What we have provided in the Harbor 
Maintenance Trust Fund account is $91 million for small 
subsistence and what are termed emerging harbors, which is 10 
percent of the overall request for the Harbor Maintenance Trust 
Fund.
    Senator Merkley. And then there will be a work plan that 
will come out as to where those funds will go?
    Ms. Darcy. If the 2016 budget is enacted----
    Senator Merkley. What I am trying to clarify is the fact 
that those ports are zeroed out in the President's budget does 
not mean that your intention is that the dredging stop on those 
small ports.
    Ms. Darcy. The dredging needs vary from year to year--what 
we have determined for this fiscal year in the 2016 budget is 
that it is not necessary to be funded in this fiscal year. We 
have to go port by port to see which ones----
    Senator Merkley. Right. So I will be in close communication 
with you all about that. There are some ports that you can get 
away with every other year dredging.
    Ms. Darcy. And some every 5 years. It all depends on the 
turbidity and the----

                   CROOKED RIVER PRINEVILLE RESERVOIR

    Senator Merkley. I just want to make sure that the economy 
of our Oregon coast doesn't shut down, as it has come close to 
a number of times when dredging was not funded. So I will keep 
an eye on that in conversation with you all.
    Commissioner Lopez, one of the things that passed at 
authorization at the end of last Congress was a resolution to 
end 40 years of water wars on the Crooked River Prineville 
Reservoir. There is a piece of that that requires developing a 
water management plan, an annual release schedule, if you will. 
I just want to draw that to your attention. I know that will 
take some resources from the Bureau of Reclamation, but it is 
going to be a critical part.
    Crooked River is in the budget. But I just wanted draw it 
to your attention and say, in this first year of implementation 
of this agreement, after decades of fighting over the water, 
how important it will be for us to make sure that it happens in 
a timely and competent basis.
    Mr. Lopez. Senator, I am aware of this legislation and I 
know in the last couple of weeks there have been a whole series 
of meetings between our area and regional staff with Oregon 
State officials and water users out there to begin to map out 
exactly how we go about the implementation of this, both moving 
the Wild and Scenic River boundary and also doing some water 
rights applications that need to be set in motion. We are 
engaged in that and will continue to work on it.

               WATER FOR IRRIGATION, STREAMS AND ECONOMY

    Senator Merkley. Thank you. And I will mention in my last 
few seconds here that the pilot project in Talent Irrigation 
District with Bear Creek, the funding is much appreciated. That 
was announced last week. Thank you.
    It is basically a situation where piping is put into an 
irrigation system to save water, and then more water can stay 
in the streams, so diversion is eliminated, therefore, it's 
better for the irrigators, better for the salmon.
    This is a pilot project for a program called WISE, Water 
for Irrigation, Streams and Economy. That larger project is one 
that Oregon has set aside matching grants for. It is something 
on which I would like to be a dialogue with you all about, 
because it, certainly, has a huge potential impact doing right 
by the irrigation districts and improving the streams and 
habitat in the process.
    Thank you very much.
    Senator Alexander. Thank you, Senator Merkley.
    Senator Feinstein has agreed to preside for the next few 
minutes while I go cast an early vote. So the next Senator will 
be Senator Lankford and then Senator Udall.

                 WATER RESOURCES REFORM DEVELOPMENT ACT

    Senator Lankford. Thank you for allowing me to jump in the 
conversation. It is good to see several of you again. I need to 
ask some questions about the Water Resources Reform Development 
Act, the WRRDA Act that we passed last year, one of the rare 
things that did pass through Congress last year. And it has a 
requirement to conduct an assessment of all the properties from 
the Corps of Engineers to determine which are ``not needed for 
the mission of the Corps of Engineers.'' So it is an inventory 
statement and then a basic ability to be able to say these are 
priority areas, these are possibly not priority areas. Has the 
Corps begun that assessment, at this point?
    General Bostick. We have begun that assessment. I believe 
you are referring to the $18 billion of projects that we 
believe we can recommend for deauthorization.
    Senator Lankford. It is from WRRDA from last year. It is 
just a list of all projects, so it is not just the new but it 
is a current inventory of all projects nationwide.
    General Bostick. Yes. We are working on that as well. We 
think we have a pretty good handle on the infrastructure 
assessment, and we feel like that is progressing well.
    Senator Lankford. What is your best guess on when Congress 
will have that report?
    Ms. Darcy. Can I offer that? We will have the $18 billion 
deauthorization report to Congress by this September.
    Senator Lankford. Okay, by September. And the obvious next 
question is then, there is a desire to say if there are certain 
projects that are not priority projects, then there is the 
opportunity to say these projects should be divested or find 
other entities, whether it be States, counties, cities, 
whatever it may be, that may want to take on the management of 
that, if there are nonpriority projects.
    What is the best way to be able to handle that disposition, 
from the Corps' perspective?
    General Bostick. We are required through WRRDA to provide a 
list of $18 billion worth of projects that are authorized that 
we believe we can deauthorize, and we will provide that list as 
well.
    Senator Lankford. It is not just a list of them. It is the 
actual process of divesting. The obvious thing for the Federal 
Government is we have a lot of extra real property laying 
around. We have had a very difficult time transitioning it out 
of Federal hands.
    General Bostick. We had to divest of a project a couple of 
years ago that we had been working on, and it took quite a long 
time and quite a lot of money just to divest. I am not able to 
tell you now that the process, once we have that list of how we 
divest, what work we will need and support we will need from 
Congress. But we will be happy to provide that. It is a 
difficult process, as it is currently set up.

                         PROJECT PRIORITIZATION

    Senator Lankford. Okay. That is an understatement, to say 
the least. We have had a tough time letting go of different 
facilities and things. So one of the goals that I would have in 
the days ahead is that, the Corps obviously will never have 
enough money, but to make sure that the low-priority things 
that we have, things that could be divested, the Corps doesn't 
have to spend money on. That can be transitioned so that money 
can then be spent on the things that are the high priorities or 
that are essential, to help protect some of those dollars.
    One of the questions from your statement, General Bostick, 
you talked about one of the priorities was to modernize the 
planning process of this. One of the struggles in the past has 
been the Corps has so many projects going on at once. Is there 
a plan to say we are going to invest more dollars faster in a 
project in order to get this done, knowing that it is more 
expensive to stretch it out over 10 years than it is to do it 
in 5, but that means doing fewer projects, but the projects 
that you do are cheaper and faster. Is that in the 
conversation?
    General Bostick. Absolutely. Secretary Darcy talked a bit 
about this in her opening remarks, about completions. One of 
the things we try to focus on, both with studies and 
construction, is if this increment of funding will complete the 
project. So one of the guiding principles is to look at 
completions.
    The other thing that we are doing on the front end is to 
make sure on these chief's reports, and going back to what we 
talked about on modernizing the process, is to say you can't 
take 10 years, 15 years to study this. And we forced ourselves 
to come inside that 3-year window, and we have done pretty well 
with that. We had to do some exceptions, but that process is 
allowing the whole process to go faster.
    Senator Lankford. Anything that we can do to keep moving on 
that. That Three Rivers project, obviously, is an example of 
that, and all the conversations were so long. And now that is 
moving and going, but there will be so many other areas to look 
at and say, how can we get this done faster?

                    WATERS OF THE UNITED STATES RULE

    One last question on it is the issue of the increase in the 
budget dealing with the regulatory activity. This a $5 million 
increase. Obviously, there are other areas. Is that related to 
the Waters of the U.S. Rule and anticipating increased 
regulatory cost in that area?
    Ms. Darcy. Yes.
    General Bostick. Yes.
    Senator Lankford. Do you know how much that is going to be 
eventually? Is that just an initial guess, an assumption the $5 
million is going to be the basic?
    Ms. Darcy. It is an initial assumption, assuming that the 
startup costs for doing the implementation once the rule is 
final. And that initial $5 million is more than we had last 
year.
    Senator Lankford. Will there be an anticipation that this 
subcommittee will be asked to have additional monies moved out 
of other project areas into regulatory areas because of that 
rule in the days ahead?
    Ms. Darcy. No, sir.
    General Bostick. We believe it is going to be initially 
more expensive, but then it will come down and settle. What we 
are doing now is hiring 125 regulators that we couldn't hire 
because of sequestration and another 25 in order to handle 
Waters of the United States, if it is passed.
    Senator Lankford. Okay, thank you.
    I yield back.
    Senator Feinstein [presiding]. Senator Udall.

              RIO GRANDE ENVIRONMENTAL MANAGEMENT PROGRAM

    Senator Udall. Thank you, Senator Feinstein.
    Secretary Darcy, last year, the Corps held stakeholder 
workshops in New Mexico and elsewhere to better understand the 
specific concerns of stakeholders and their water resources 
management priorities associated with the Rio Grande. I 
appreciate these efforts. It is important that the Corps 
continues to work with local interests and listen to local 
people.
    One program, in particular, that was highlighted as very 
important is the Rio Grande Environmental Management Program. 
On January 28, I along with Senator Heinrich wrote you a letter 
urging you to include $150,000 in fiscal year 2015 study 
funding for the Rio Grande Environmental Management Program. 
Unfortunately, we received a response stating that funds were 
not made available for this program due to other priorities.
    This is an important program. I am hoping to work with you 
to ensure this program is funded.
    Can you talk a little bit about why this project is not 
being funded in fiscal year 2015? Are there other accounts that 
provide funds for similar work?
    Ms. Darcy. Senator, you are correct. It was not included in 
the 2016 budget. This is an environmental program. It is not a 
project-specific program. So the development of what the 
components of this program would be would need to be developed, 
as well as finding a local cost-share sponsor. Then it would 
still also have to compete with other new programs within our 
larger program.
    Senator Udall. Okay, thank you.

                             REIMBURSEMENTS

    General Bostick, local communities in New Mexico and 
elsewhere, I believe, in the country have advanced funding to 
cover Federal costs in environmental infrastructure projects in 
this country. They did this to accomplish needed projects more 
efficiently and reduce overall costs to the Federal Government.
    Two public entities in my State are owed money from the 
Corps for these projects. When funds are appropriated in these 
authorities, reimbursements are not being made to pay back 
these costs. Will you continue to work with me to ensure that 
these past owed reimbursements are paid back to these 
communities in the future?
    General Bostick. Senator, I am not aware of this issue, but 
I am happy to look into it and work with you to close it out 
and find out what we actually owe, and if so, we will clear it 
up.
    Senator Udall. It is a big issue, and it is more than just 
the $10 million to the City of Rio Rancho. It is a big issue, I 
think, across the country, is my understanding.
    But thank you for your willingness to work with me on it.

                    NATIVE AMERICAN AFFAIRS PROGRAM

    Commissioner Lopez, in your testimony, you highlighted 
tribal priorities, and the one thing I struggle to comprehend 
is the fact that many native communities in New Mexico do not 
have adequate water infrastructure, and in some cases, no 
running water at all, as you well know.
    Does the Native American Affairs Program under the Bureau 
of Reclamation aim to address some of these issues?
    Mr. Lopez. Senator Udall, the Native American Affairs 
Program is intended to certainly work on any technical issues 
that a Tribe might have regarding its water supply. Further, it 
gives us an opportunity to negotiate on the water right 
settlements, if a particular tribe has outstanding claims that 
have not yet been resolved.
    So I think it does give us an avenue for beginning those 
conversations and figuring out how we might begin to address 
those issues.
    Senator Udall. Great. Could you talk a little bit about 
water leasing and why it is important? I know that that is part 
of what some of the stakeholders in the Middle Rio Grande 
Project want to do.
    Mr. Lopez. Certainly. Senator, the Rio Grande, as you know, 
is oversubscribed. In many years, essentially all of the water 
was spoken for. But if it were not for leasing water, the river 
would go dry, and there would be no water to sustain the 
endangered species in the river.
    Historically, Reclamation has leased San Juan-Chama water 
from people who have not yet put that water to use. 
Increasingly, that water is being put to use by the cities to 
whom it is under contract. Therefore, it is increasingly 
important that we find other leasing mechanisms, including 
through willing buyer, willing seller methods, whereby a farmer 
or a group of farmers might get together and decide that, in a 
dry year, it is more advantageous for them to lease that water 
and sustain the river, and thereby keep the endangered species 
alive.
    Senator Udall. Great. Thank you very much. And welcome, 
again.
    Thank you, Senator Feinstein.
    Senator Feinstein. Thank you, Senator Udall.
    Senator Murkowski.

                      ARCTIC DEEP-DRAFT PORT STUDY

    Senator Murkowski. Thank you, Madam Chairman.
    To the panelists, thank you for being here today and for 
your work.
    Secretary Darcy, I want to talk with you about some of our 
civil works construction projects. I will start first by 
thanking you. We have four new feasibility studies included. I 
know that the communities of Kotzebue, St. George, Craig are 
going to be pleased moving forward with this. The conversation 
about the subsistence and small boat harbors, know how 
critically important that is to us, as we try to develop these 
small coastal economies, that the boat harbors and these 
subsistence harbors are just so critically important.
    I am going to be starting off I think every appropriations 
hearing I'm participating in challenging agencies and members 
of the administration as to where we are with implementation of 
any aspect of an Arctic strategy.
    So to my colleagues, you are just going to get used to 
these questions, because it is very pressing to me.
    As you know, Secretary Darcy, we are an infrastructure-poor 
State. We face some challenging conditions when it comes to 
construction of some of our infrastructure along our coastline. 
We are, of course, trying to move forward with an Arctic deep 
water port, and the port study has been underway for some 
period of time. I am told that this report is going to be 
issued by the Corps soon. But around here, you are never quite 
sure what ``soon'' means.
    Can you give me the status of the Arctic deep-draft port 
study?
    Ms. Darcy. The draft will be released in February 2015, and 
we are tentatively expecting a civil works review board to be 
scheduled for August.
    Senator Murkowski. Okay, so as soon as this month, then?
    Ms. Darcy. It says February 2015, so yes, ma'am.

                     CONTINUING AUTHORITIES PROGRAM

    Senator Murkowski. Okay, we will be looking for that within 
the next week to 10 days or so. Again, a critically important 
initiative for us, and know that I will be asking you more 
about what we can be doing in the intercoastal communities to 
provide for that necessary arctic infrastructure when it comes 
to ports and our harbors.
    I wanted to ask, also, about where we are with the 
continuing authorities program. As you know, we have many, many 
small navigation projects where our harbors are at risk from 
coastal erosion. We have different storm issues that we are 
dealing with.
    Barrow, for instance, is in need of beach restoration in 
order to keep parts of town from basically being washed away 
here, and Barrow is just one community. The situation is that 
they can't wait for a period of years that it takes for the 
funds to be appropriated for a feasibility study, and then for 
the WRRDA Act to be passed and then more funds to be 
appropriated for construction.
    So, in looking at the budget, we see that section 107, 
which is the navigation, and section 103, the beach restoration 
of the continuing authorities program, is not receiving any 
funding in fiscal year 2016. So I am trying to understand what 
is going on within this category.
    We have a significant reduction in funds between fiscal 
year 2015 and fiscal year 2016. Are we phasing out the 
continuing authorities program in general? What is happening 
with this?
    Ms. Darcy. Senator, we are not phasing out these programs, 
because, as you pointed out, they are very important, 
especially to some smaller communities. These programs and 
projects, have a lower funding level and they don't go through 
the feasibility and chief's report process. We have some 
unobligated balances in those accounts, so that is one of the 
reasons we did not fund some of them; we can carry those over 
to this year.
    Senator Murkowski. And you have sufficient balances, then, 
that will allow you to address the unmet need at this point in 
time?
    Ms. Darcy. Within our budgetary constraints we do, yes, 
ma'am.
    Senator Murkowski. Okay. I am going to be coming back to 
you, because I think you know that we have identified again, 
many of these coastal communities where the dollar amount is 
not high, but for purposes of what they are trying to do in 
dealing with beach erosion and shoreline erosion issues and 
just with sea level issues, it has to be addressed sooner than 
later. And it is nice to know that you have unobligated 
balances, but I am going to want to know for sure that we are 
going to be able to address some of these needs.
    Thank you, Madam Chairman.
    Senator Feinstein. I thought you were going to get a 
``yes'' there for a minute.
    Senator Murkowski. I know, I know. We're working on it.
    Senator Feinstein. Senator Coons.

                     HARBOR MAINTENANCE TRUST FUND

    Senator Coons. Thank you, Senator Feinstein and thank you, 
Chairman Alexander. This is my first hearing as a member of the 
E&W Appropriations Subcommittee, and I want to thank Roger for 
his 35 years of service and say that hopefully my arrival has 
nothing to do with your impending departure. Thank you for your 
decades of good and faithful service here.
    To Assistant Secretary Darcy, I just wanted to open by 
thanking you for your continued support of a project that is 
near and dear to my constituents, the Delaware River deepening 
project. I very much appreciate the additional $62.5 million in 
the fiscal year 2015 work plan that will fully fund the work 
needed to be done in fiscal year 2016. This is a critical year 
for this project that is of great impact to the whole region, 
and I am glad it is going to be moving forward and being 
completed.
    One of my legislative priorities is to increase utilization 
of the Harbor Maintenance Trust Fund. I was somewhat 
disappointed that fiscal year 2016 request doesn't meet the 
target set out in WRRDA of $1.3 billion. The request of $915 
million is the same level requested in 2015 and lower than 
provided in the omnibus.
    How will this lower request effectively maintain our 
Nation's navigation channels and harbors, and maintain our 
global competitiveness? So please, thank you, and question.
    Ms. Darcy. Senator, the $915 million that is in the 
President's budget for the Harbor Maintenance Trust Fund, as I 
said in my testimony, is the second year in a row that it has 
been that high. Given our current budget constraints, this is 
the amount that we think we can use in this fiscal year in 
order to maintain, especially, the 59 busiest commercial 
harbors in the country, which transport about 90 percent of the 
traffic.
    Also, this is in compliance with the set-aside. As Senator 
Murkowski and others noted, we have a 10 percent, $91 million 
allocation for small, subsistence, emerging harbors, which was 
another requirement of the WRRDA bill.

                     NATURAL DISASTER PREPAREDNESS

    Senator Coons. Thank you for the answer. I look forward to 
working with you to find ways to strengthen support for smaller 
harbors.
    The North Atlantic Division just put out an impressive, 
somewhat comprehensive report about the lessons learned from 
Superstorm Sandy, which was a very expensive storm. The total 
Sandy relief I think is $65 billion. And I was wondering if we 
know how well shore protection and other vital Corps projects 
helped to reduce the amount of damage from the superstorm, and 
if you did any quantification of the damages and costs avoided 
because of these vital Corps projects?
    Ms. Darcy. I believe we did. I don't have the numbers at my 
fingertips, but we can provide them for you. I think they were 
in the Sandy report.
    But I would just note that the day after the storm, General 
Bostick and I went up to New York and New Jersey and flew over, 
and you could see the difference between where there had been a 
storm damage reduction project and where there had not been a 
project. The damages were incredible.
    The projects worked as designed in those places where they 
had built a beach nourishment project.

                             CLIMATE CHANGE

    Senator Coons. Well, I'm excited to see that the Silver 
Jackets programs are expanded again in fiscal year 2016 to help 
communities prepare for natural disasters. To me, one of the 
core components of the emergency preparedness, emergency 
management is preparing for climate change. It has been 
estimated every dollar we invest in natural disaster 
preparedness, we might be able to save up to $4 in emergency 
response. Your citation of the Superstorm Sandy impacts 
suggests that.
    Could you elaborate on how we are preparing for the impact 
of climate change and how that factors in to your investment 
and decisionmaking for the Army Corps at the programmatic 
level?
    Ms. Darcy. Certainly, Senator.
    Since 2009, the Corps of Engineers has been requiring 
climate change to be factored into the mainstream lifecycles of 
all of our projects, from the planning for future projects as 
well as for looking at our ongoing projects. All new projects 
and planning must comply, and apply these new policies and 
guidance, including the three different scenarios for sea level 
change over time. When we are looking at a project, we look at 
it through the lens through those three possibilities.
    For existing projects, we conduct progressively detailed 
assessments to understand possible impacts. We have done a 
coastal assessment of all of our projects to determine what it 
is their vulnerabilities would be from not only different sea 
level changes, but climate change as well.
    So those are some of the things we have started to do 
already.
    Senator Coons. General Bostick.
    General Bostick. The only other piece I would add, and I 
talked about this briefly in my opening remarks, is that we are 
looking at these watersheds as a system, more than individual 
projects. How does a system of projects demonstrate the kind of 
resilience that it needs in the face of disasters? We are 
working with the industry. We are working with a lot of think 
tanks and academia, to really understand how we do this. And 
then is there a way that would lead to watershed-informed 
budgeting.
    There is a lot of work that I think can happen in this 
particular area.
    Senator Coons. Thank you, General Bostick. Thank you, 
Secretary Darcy.
    I am from the lowest mean elevation State, so I have an 
abiding interest in how we deal with and plan for climate 
change and its impact on our coasts and waterways.
    Thank you very much.
    Senator Alexander [presiding]. Thank you, Senator Coons.
    Senator Tester.

                              RURAL WATER

    Senator Tester. Thank you, Mr. Chairman. I once again want 
to thank the panelists for being here today.
    We are going to start with you, Commissioner Lopez. There 
are a lot of rural water projects out there. Montana has a 
couple right now. I was first introduced to those water 
projects when I was running for the State Legislature. They 
were $100 million projects. Now they are north of $300 million. 
The same projects. Haven't added anything on. That is just the 
way it has gone.
    The allocation in this budget is anemic for those water 
projects. I would make the claim it doesn't keep up with the 
cost of inflation. Now we may add additional dollars like we 
did last year, but it's not good.
    Is there a plan for getting these projects fixed in a 
timely manner? I mean, we are talking about projects that 
connect up with Indian water settlements, where the water is 
fairly critical if we are going to have economic development to 
move those folks out of poverty.
    Can you give me any insight on that, or do we just live 
with getting a percentage point a year? What are we going to do 
about it?
    Mr. Lopez. Senator, in these constrained budget times, it 
is extremely difficult to allocate additional funds to these 
projects when our core mission requires so much of our budget. 
We will continue to allocate as much of our budget as we 
possibly can to move these projects forward.
    I want to thank this subcommittee for the additional funds 
that we received in 2015. But I think the best we can do is to 
try to prioritize the projects. I think you know about our 
criteria for prioritizing spending for the funds that we do 
receive including serving Indian communities, which the 
projects in your State do.
    Montana projects are also some of the projects that are 
further along, receiving additional priority, as does the 
population these projects serve. So we will keep moving those 
forward with the funds we are able to receive.

                           WATER SETTLEMENTS

    Senator Tester. All right, which brings me to water 
settlements, because they are tied together and we have a 
number of them.
    One of them is in the funding bill right now for Crow. It 
is one of the five that is in there. Let me ask you this, there 
are some, and I am one, who advocate taking money from the 
reclamation fund to pay for some of these water settlements and 
water projects, too. Give me your opinion on that. There is a 
pretty healthy balance in that reserve fund.
    Mr. Lopez. Senator, I know that the Administration had 
looked at some options for funding some of these settlements, 
including looking at taking some money from the Reclamation 
Fund.
    Senator Tester. Would the Administration support that, to 
get right down to it?
    Mr. Lopez. I can't speak for the Administration as a whole. 
I think that we, certainly, recognize that.
    Senator Tester. Okay, we will go a different route. Would 
you support that?
    Mr. Lopez. I would like to get these projects done, 
Senator.

                               INTAKE DAM

    Senator Tester. Okay. So would I. I mean, I just don't see 
there ever being an end to it.
    Secretary Darcy, it is always good to have you here. It 
seems like we ask the same line of questions every year. I am 
going to talk to you about Intake Dam and the fish passage for 
the pallid sturgeon and its viability. I know there is a 
lawsuit pending.
    Does that lawsuit have merit, as far as the viability for 
the fish passage, or is it without merit?
    Ms. Darcy. I can speak to the merit on the project, not to 
the merit of the lawsuit.
    Senator Tester. I think they are suing because they don't 
think the project will work.
    Ms. Darcy. Yes, they don't think that the fish passage, as 
designed, will accomplish the goals under the biological 
opinion.
    Senator Tester. That is correct.
    Ms. Darcy. We believe that, as designed, it will meet the 
needs of the endangered species that is part of the subject of 
the biological----
    Senator Tester. So you think you will win that suit?
    Ms. Darcy. I don't know.
    Senator Tester. Okay. Are you an attorney?
    Ms. Darcy. No, sir.

                    MISSOURI RIVER FISH AND WILDLIFE

    Senator Tester. Lucky you.
    There is about $47 million, I believe, in this year's 
budget for that, for the Missouri River Fish and Wildlife 
Recovery Program. Is that adequate? Is that what you asked for?
    Ms. Darcy. In the 2015 work plan, we have $20 million for 
the Intake and $20 million in the 2016 budget request.

                               HYDROPOWER

    Senator Tester. Okay. One last question that deals with 
something you said in your statement. You said that your budget 
has 5 percent dedicated to hydropower. Do you have any projects 
in mind?
    Ms. Darcy. That is dedicated to our ongoing hydropower 
projects. We don't have new start projects at that 5 percent. 
That is mostly to continue to maintain our ongoing hydro 
infrastructure.
    Senator Tester. Let me ask you this, in the private 
sector--and I will be quick.
    I am sorry, Senator Hoeven.
    In the private sector, they have redone, in Montana at 
least, some of the hydro generation on the Missouri up by Great 
Falls. It has created more electricity. I think it is easier on 
the fish.
    Has there been any discussion of doing that with Fort Peck?
    Ms. Darcy. I do not know specifically about Fort Peck. I 
know we are looking at trying to evaluate where we have 
existing hydropower generation and projects, how we can make 
them even more efficient, or possibly expand on them.
    I don't know about Fort Peck. I thought we had a 
conversation about Libby, but I'm not sure.
    Senator Tester. I think it would be wise to look down that 
line. I think it is a great way to expand.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Tester.
    Senator Hoeven.

                      PUBLIC-PRIVATE PARTNERSHIPS

    Senator Hoeven. Thank you, Mr. Chairman.
    I guess the first several questions are for either General 
Bostick or Secretary Darcy. I want to thank all of you for 
being here today and for the important work that you do.
    General or Secretary, the first question I have is, in the 
water bill, we authorize what is referred to as P3 funding, 
meaning public-private partnerships where we would try to use 
alternative delivery models and alternative means of financing 
to actually make your dollars go further, to leverage the 
Federal and get some of these projects going. And then we 
authorize new starts and said you ought to use alternative 
financing and delivery methods where you can, P3, the public-
private partnership model. And so what I want to know is, where 
are you in that process? Have you picked any projects for the 
P3 approach?
    Ms. Darcy. In the current budget, we haven't picked one 
specifically for the P3. We are looking at some pilots within 
some projects, and we are also looking at other ways to 
leverage P3.
    I think you are interested in some of the proposals on the 
Fargo-Moorhead.
    Senator Hoeven. Very.
    Ms. Darcy. That is an innovative way to help to finance. 
That is like a P4.
    Senator Hoeven. That is better yet, right?
    Ms. Darcy. It is public-public-private-private, back to the 
public, back to the Federal interests. But it is an innovative 
way to finance, and I think it is something that we need to 
take a very good look at, because if there is capital out there 
that can be leveraged against these necessary projects, I think 
it is something we have to do.
    General Bostick. We have been looking at this very hard, 
and we believe it is something we have to do. Last April, I met 
with a group of investors and business leaders who are 
interested in this sort of opportunity. We have created a small 
office in the headquarters and have people who wake up every 
day thinking about how to do this.
    But it is a long road. We are trying to work within our 
authorities, which makes it complex for investors. So we are 
looking at the authorities that we have.
    We have a couple pilots, in fact, that we are working to 
try within our authorities execute a form of P3. There is more 
work to be done.
    This is something we believe in, and we're working hard at 
it. We have a long road to go, but we are very much interested.
    Senator Hoeven. So if you could get a P3 or maybe even a P4 
candidate that, in fact, reduces the Federal share in half, and 
increases the benefit-cost ratio by more than double, that 
would make it an attractive candidate for selection by the 
Corps to proceed to construction? I would ask both of you that 
question.
    Ms. Darcy. Yes. I think your point about doubling the 
benefit-to-cost ratio is an important one to consider. That is 
one we have to consider when we agree to budgets for projects.
    Senator Hoeven. Have you looked at the P4 proposal put 
forward for the Red River Valley project, the Fargo-Morehead 
proposal for P4?
    Ms. Darcy. We have. I know folks on both of our staffs have 
met with the local sponsor to discuss it, yes.
    Senator Hoeven. General.
    General Bostick. I just had a high-level briefing on it, 
but we are willing to take a deeper dive and make sure we 
understand the mechanics of what is being discussed and 
whether, within our authorities or by seeking others, there is 
some way to do something. But within our authorities is where 
we are currently focused. I'm happy to take a look at this.
    Senator Hoeven. General, I would ask you would. I met with 
General Peabody and other members of your staff. We talked 
about the benefit-cost ratio and the importance of getting 
above a 2.5 benefit-cost ratio. Then we also included language 
in WRRDA that requires you to give consideration for 
alternative methods of financing and the Public-Private 
Partnership.
    I think that the Fargo-Morehead project is an incredible 
candidate that meets the requirements that are laid out for us. 
So I would ask that you take a look at it.
    You're willing to do that?
    Ms. Darcy. Yes.
    General Bostick. Yes, we are.
    Senator Hoeven. Thank you. The other question I would ask 
in that regard is, do you give consideration for local cost 
share where both the nonFederal share is already in hand on the 
part of the State and the local participants, and that it is 
higher than your typical 35 percent cost share for nonFederal? 
Do you give consideration for that, again, having the share 
available and a higher percentage from the local and State 
sponsors?
    Ms. Darcy. It would be a consideration in our budgeting, 
but it is not necessarily the criteria that is ultimately used 
in making a budgeting decision. But it is an attractive 
criteria to be able to consider.
    General Bostick. I would only say it doesn't fit into our 
current models of consideration. I think if we are going to go 
forward with P3, we have to look at innovative and creative 
methods. I'm not sure if this one fits into it, but I think we 
have to look at it and see if it is something that we want to 
consider.
    Whatever we do, I think ultimately it will have to work for 
the Nation as policy or law. We're just not there yet, but 
we're going to look at it, Senator.
    Senator Hoeven. Would you agree that if the local and State 
sponsors come up with a higher share than the typical formula, 
and reduce the Federal cost share, and they have their money 
ready to go, would you say that that is a good thing, in terms 
of evaluating projects?
    General Bostick. It sounds good on the surface, Senator. We 
just have to look at the details.
    Senator Hoeven. Thank you, General, and Secretary.
    Mr. Chairman, I do have some other questions, so I would 
ask the chairman's wishes as to whether I should proceed, 
because I am over my time?
    Senator Alexander. Thanks for asking. Why don't you take 2 
or 3 more minutes, and we will see who else comes back.

                       STANDING ROCK RESERVATION

    Senator Hoeven. Thank you, Mr. Chairman.
    Again, Secretary Darcy, I would like to switch gears.
    On the Standing Rock Reservation, they are concerned that 
their application for a permit to draw water out of the Oahe 
Reservoir is being held up on the basis of water rights. So I'm 
wondering if you have any familiarity with that issue and if 
there is anything that you can either comment on now, or if in 
fact you can lend your assistance, because what is coming back 
from Chairman Archambault, the tribal chairman, and the tribal 
council is that they feel that the Corps is telling them no, 
they can't get a permit to draw water from the Missouri River 
and the Oahe Reservoir that they need when, of course, they 
feel, and they do, have water rights for the Standing Rock 
Reservation.
    Ms. Darcy. Senator, having tribal water rights for 
withdrawals are tantamount to having the ability to draw. I 
don't know the details of this particular situation, but I 
would be happy to look into it because it sounds as though that 
is not our usual mode of operating. If there is a tribal water 
right to an existing water supply, then that would be granted.
    Senator Hoeven. But you would agree that the tribe has 
water rights?
    Ms. Darcy. Yes, sir.

                               NEW STARTS

    Senator Hoeven. Thank you. I appreciate your willingness to 
look into it. We need to. We have been requested to by the 
tribal chairman.
    General Bostick, in the case of Minot, North Dakota, they 
had a terrible flood in 2011. It overwhelmed the banks of the 
Souris River. To date, in recovery, we have spent I think more 
than $630 million in terms of flood recovery, just on the 
Federal end and not counting the State and local share.
    They are trying to do a permanent project, and they need to 
get a study going in order to have a Federal project. But that 
requires a new start. Only three new starts were authorized 
under the WRRDA bill.
    I'm wondering what can you tell me in terms of getting to a 
new start, so we can do a study and evaluate a permanent 
project for Minot. They are moving forward on what they can do, 
but they also have to be careful there so that they don't 
preclude the ability to get a Federal project and fail to meet 
the benefit-cost ratio, if they take all the other actions on 
their own.
    So how do we get to a study so they can plan long-term for 
their permanent flood protection?
    General Bostick. Senator, I think we have to look at all of 
these projects as we move forward. We have very limited new 
starts that we are able to begin. From a performance-based 
budgeting, and life safety, try to make the best judgments that 
we can.
    But in terms of the future, I would say we continue the 
process that we have and look to see if there is any other 
consideration that can be made in that particular case to see 
if it would compete better than it has in the past.
    Senator Hoeven. General, my earlier questions related to 
actually having a project move forward to construction. This 
question relates specifically to how you get the study done to 
determine what the Federal project should be, particularly when 
the locality and the State are spending money to improve their 
flood protection but being told by the Corps that they could 
damage their chances to get a Federal project, because of all 
the actions they are taking to get flood protection in place 
now, because they would reduce their ultimate benefit-cost 
ratio.
    You have a cutline, and OMB has a cutline, as to which 
projects get funded based on that benefit-cost ratio. How do we 
solve their dilemma, in terms of getting a study going so they 
can protect themselves, which they are doing, but also plan for 
a long-term permanent project?
    General Bostick. I would have to follow up with you on 
that.
    Senator Hoeven. You understand the dilemma, sir?
    General Bostick. I understand what you're saying.
    Senator Hoeven. Okay. So we need your help, just as we did 
in the case of the P3. We got good information from you. I 
think we met your requirements. We need to have an 
understanding of what we have to do in the Minot case.
    General Bostick. Okay.
    Senator Hoeven. Thank you, Mr. Chairman.

                          TAXES AND USER FEES

    Senator Alexander. Thank you, Senator Hoeven.
    First, all of us are urging you to do things you are not 
doing. Let me thank you for something you are doing. Over the 
last few years, different agencies of the Federal Government 
have worked to keep the mitigation fish hatcheries open, two of 
which are in Tennessee. And the Army Corps, the Board of 
Reclamation provides some money for that, which you should, for 
basically fish that are killed as a result of dams that you 
operate.
    The Fish and Wildlife Service has been very cooperative. 
And now the Tennessee Valley Authority has gotten involved, and 
there is a 3-year study going on which would keep the two major 
fish hatcheries open at Dale Hollow and Irwin in Tennessee. The 
study is looking for permanent solutions.
    So I want that to be on your mind as the various agencies 
come back with a permanent solution, the fact that the 
Tennessee Valley Authority became a new player in this compact 
and has provided additional funds and may make it possible for 
us to have a permanent solution on those.
    So we have all the departments represented here today 
involved in that, and I thank you for it.
    Let me go back to one other point that we started on at the 
beginning. It is a problem that I don't expect you to solve 
today, but it is one I am going to work with you to solve. That 
is this business of collecting taxes and user fees and not 
spending them on ports and inland waterways.
    To start with inland waterways, every year since 2009, I 
believe it is true we have spent basically everything we had in 
the Inland Waterways Trust Fund.
    Isn't that right, Secretary Darcy?
    Ms. Darcy. I believe there has been a balance but not a 
large balance in years past.
    Senator Alexander. Very, very little, I believe. So the 
problem was we were told not enough money in the Inland 
Waterways Trust Fund, so we go out and get the users, the big 
commercial users, to agree to pay $.29 per gallon, I guess, 
instead of $.20. We raised what should be another $30 million. 
So the regular tax would provide about 85 percent. The new user 
fee should get to be about 13 percent, in the first year, maybe 
15 percent.
    So what we have is this year you are carrying $16 million 
to $19 million from last year that you are not spending. Then 
there is 85 coming in from the $.20 fee that existed. Then we 
have $15 million or so coming in from the new $.09, so you are 
collecting $115 million, $53 million you are spending, but $57 
million you are not spending.
    So I have to go back to these users and say, I'm sorry, we 
told you that we would fix the Inland Waterways Trust Fund and 
keep the locks open if you would ante up and pay more, and now 
they are paying more and we're not spending it.
    Then there is the Harbor Maintenance Trust Fund, which we 
collect taxes on cargo. We collect about $1.5 billion, $1.6 
billion a year for the purpose of harbor work, like deepening 
the harbor so we can be competitive in the world marketplace. 
Yet, you're recommending spending $915 million out of the $1.5 
billion or $1.6 billion. And you have about $8 billion in the 
fund that is unspent, that is collected for that purpose and 
unspent.
    Now, part of that problem is the administration's, because 
they don't give you the allocation to spend it. Part of it is 
the Congress' fault, because we don't get the allocation to 
spend it. But it doesn't make common sense that we would want 
to be a great country with great ports and a great inland 
waterway system, that we would be collecting money from taxes 
on cargo and from users of inland waterway systems to 
reconstruct those inland waterways and deepen those ports, and 
we leave $57 million in the Inland Waterways Trust Fund 
unspent, and we have an $8 billion balance in the Harbor 
Maintenance Trust Fund unspent.
    Do you have any comment on that? Any suggestions on how we 
can deal with that?
    General Bostick. One thing first, as I said earlier, I 
think many of the adjustments that have been made will help us 
in the long term. If you look at the capital projects business 
model, they recommend expenditures of approximately $380 
million per year over 20 years to really get after the 
infrastructure needs of the inland waterways. So while the 
money is not spent this year, the Inland Waterways Trust Fund 
and having that build up to a certain level is a good thing, I 
think.
    The other thing is that we are in a period of transition. I 
think that the decision to make the percentage breakdown 85 
percent of the general treasury for Olmstead was helpful, but 
it allowed that fund to grow much higher than it would have 
been in previous years. So I am not saying it is an anomaly, 
but I think it is a one-time issue that we will deal with and 
that will level off in the years ahead.
    Senator Alexander. General, if you had more appropriated 
dollars, could you spend more of the trust fund?
    General Bostick. I think if the top line were higher, we 
could use additional money on increments of work that would add 
value. So yes, we could do that.
    We clearly support the President's budget, because there 
are priorities well beyond civil works that the Nation has to 
deal with. And as I said earlier, with the budget we have, we 
are trying to work alternative financing methods that will 
bring in money that will allow us to address some of these 
needs.
    But at the end of the day, I think the Inland Waterways 
Trust Fund growing is a good thing for us, and in the out-
years, we will continue.
    Senator Alexander. Well, if you are looking for a public-
private partnership, you have it on the Inland Waterways Trust 
Fund. I mean, you have the big users paying a higher user fee 
to help fix the locks. So we have it. We just need to figure 
out a way.
    I know you would like to do everything that needs to be 
done. I know that you want to do that. But what I would like to 
do is to work with you both, in terms of our rules here in 
Congress and the administration, and make sure that if we have 
this money, we're collecting it and we have these important 
goals for our country, that we are able to reach them. It 
doesn't make much sense to the guy on the sideline to look at 
that and say, okay, you want deeper ports and you want to fix 
locks and you have the money in the bank but you won't spend 
it. That doesn't make a whole lot of sense.
    So I know what you want to do, and I would like to work 
with you and see that we do more of it.
    I don't know if other Senators are coming back. I see 
Senator Lankford here, and I will be glad to call on him for 
additional questions. And if Senators come back who haven't had 
a chance to ask questions, we will let them do that. And if 
Senator Feinstein comes back, of course, she can say she 
whatever she wants to say. Then we will conclude the hearing.
    Senator Lankford.
    Senator Lankford. Thank you, Mr. Chairman, which would mean 
that our witnesses have an extra eye toward the door, hoping 
that no one else walks it.

                    WATERS OF THE UNITED STATES RULE

    Senator Lankford. Every time the door opens, it is longer 
for them.
    Let me just ask a couple of quick questions, just a follow-
up. We talked a little bit about the Waters of the U.S. Rule, 
and the $5 million that has been moved over asking for 
additional money for the rulemaking authority on that. My 
question is, do you expect a higher volume of permits under a 
new definition of Waters of the U.S.? And what effect will that 
have, long term, on manpower and time for permits and such?
    Ms. Darcy. I think, initially, we will see an increase in 
the number of permits. Our estimate in the economic analysis 
that was done was about a 3 percent increase.
    Senator Lankford. Do you have the manpower already to be 
able to handle that increase?
    Ms. Darcy. No, sir. That is why we have the additional $5 
million in the regulatory request for 2016.
    But over time, we anticipate that the manpower needs will 
not be as great. We are trying to figure out how much money we 
are going to need and how many people we are going to need. We 
looked at what we did after the Rapanos guidance went out in 
2008, and started using that as a benchmark as to what 
additional needs might there be. A lot of the initial needs are 
going to be for training our regulators for what impacts these 
new jurisdictional determinations will need to be made, and 
most of it is training, and, as General Bostick said, 
additional personnel as well.
    Senator Lankford. So your thought is that it will require 
additional training for existing regulators, but once they get 
the training, there won't be a need for additional individuals 
to oversee this regulation?
    Ms. Darcy. I think there will be an initial need for 
additional regulators and also the training for existing 
regulators, as well as new regulators. But I don't see that 
growing over time. I think that is sort of like the startup 
cost for getting us to where we need to be in order to 
implement.
    Senator Lankford. You don't see an additional--I am trying 
to get a sense of it, because it seems like it broadens 
tremendously the number of locations that would require a 
permit or a new type of permit, or at least someone to go out 
and take a look at it and be able to evaluate it. It looks like 
it would increase the inventory by a pretty large margin.
    So the assumption is that the people that you have on the 
ground now, you will need very little change on that long term 
to be able to handle that additional work?
    Ms. Darcy. What we envision, Senator, is part of the rule 
is to get better certainty into what is jurisdictional and what 
is not, who was in and who is out. We do that by providing 
definitions, some definitions for the first time in the 
proposed rule, like a definition of tributary. That is the 
first time that has ever been defined.
    So if we have a bright line test so that people know they 
are in or out, I think that it will, over time, reduce the 
number of case-by-case specific determinations we have to make. 
Right now, if a permit comes in and it's not currently a 
regulated water, we have to go out and make case-by-case 
specific determinations on whether there is a significant 
nexus, whether there is a tributary. By defining tributary and 
other things in the rule, we will know, because they are a 
tributary, whether they need a permit or not.
    Senator Lankford. It's no big surprise to you that many 
people across the frigid plain are a little concerned that 
every low spot on their land that is a dry low spot that holds 
water when it rains suddenly gets defined as a tributary and 
that bright line that you talk about seems a little fuzzy at 
this point.
    Ms. Darcy. Senator, we have received over 1 million 
comments on this rule, and many of the comments are dealing 
with being more specific in the definitions and getting some 
more clarity, so we are taking those comments to heart before 
we issue the final rule.

                     FEDERAL FLOOD RISK MANAGEMENT

    Senator Lankford. Okay. Let me ask about one another piece. 
The Federal Flood Risk Management Standard, which is another 
one of those things that as it comes through the process, there 
are a lot of questions about, if individuals can get access to 
data and the underpinnings of that and the scientific research 
and how that came about, if there will be a significant moment 
for not only receiving comment but knowing that their comment 
is heard and acted upon.
    Tell me the status on that and how much transparency there 
will be in this process?
    Ms. Darcy. The flood standard, as you know, is in the 
public comment period for implementation, to have the public 
comment on how this flood standard should be implemented. It is 
out for a 60-day comment period.
    We, the Corps of Engineers, along with the other Federal 
agencies, are active in that process. That will be transparent. 
I believe the comments will all be publicly available before we 
finalize any implementation guidance.
    Senator Lankford. Okay, all the data and the underpinnings 
and the research for it, background, where will that be, as far 
as availability?
    Ms. Darcy. FEMA was one of the lead agencies on this 
effort, and I believe it will be on FEMA's Web site. But we can 
get back to you on that.
    Senator Lankford. Yes. That has been an issue, that some of 
these decisions have been made and they said the research and 
data behind it is proprietary, so it cannot be released. So 
there is a pretty significant change, and no one can see the 
data. So I would like to have every opportunity that we can to 
have peer-reviewed data that is available to people, and they 
can actually interact with that data.
    Ms. Darcy. I believe we are going to do that, but I will 
get back to you with the website. Hopefully, we can provide 
information.
    Senator Lankford. I would like that very much, to be able 
to have that kind of availability of data and that kind of 
interaction.
    Mr. Chairman, thank you.

                      INLAND WATERWAYS TRUST FUND

    Senator Alexander. Thank you, Senator Lankford.
    I have an appointment with the President's nominee for 
Secretary of Defense. I am going to go keep it. Senator 
Feinstein is going to preside. She has a couple questions that 
she is going to ask, and I trust her with the gavel. She is 
experienced with it.
    I have one question of clarification, General Bostick. Did 
you say that there are $380 million of projects for the Inland 
Waterways Trust Fund? What was the $380 million figure you 
said?
    General Bostick. This was an estimate of capital projects 
business model. There is a capital projects business model, and 
that effort showed that we need about $380 million per year 
over a 20-year period to really address the infrastructure and 
the needs of the inland waterways.
    Senator Alexander. So that would do it? That is all it 
takes, combined appropriated and trust fund money?
    General Bostick. I don't know what the all the assumptions 
are that went into that, but we can provide that to you.
    Senator Alexander. I would like to see that. I would like 
to see some estimate of what the backlog of projects is, what 
the estimated work plan is over the next several years, and how 
the funding that is expected to come in from the trust fund and 
the appropriated funds meets what we need to do. We can talk 
about that separately, but I would like to talk with you about 
that.
    General Bostick. We will do that, sir.
    Senator Alexander. Thank you for coming. The hearing record 
will remain open for a week for additional questions. And 
Senator Feinstein will now preside and ask whatever questions 
she would like to ask.

                           CALIFORNIA DROUGHT

    Senator Feinstein [presiding]. Thank you very much, Mr. 
Chairman. Be assured that I will behave.
    Commissioner Lopez, I would like to thank the bureau for 
working very hard to maximize water supplies in California 
under the most difficult circumstances. The bureau has just 
been terrific, and I have had nothing but positive feedback 
about Reclamation, not only from many constituents but also 
from the State people and State departments who depend on 
various water project supplies.
    I am also very pleased to see that Reclamation has 
developed a spending plan to make good use of the $50 million 
provided to the bureau to address the West's drought. Not only 
California, but other States in the west will also benefit from 
increased funding for increases to fight drought.
    As you know, the drought in California shows no sign of 
abating. Between December 21 and February 6, most of California 
saw no measurable precipitation. Even after this past weekend's 
storms, Shasta remains at 51 percent of capacity, Oroville at 
45 percent, Folsom at 51 percent, and San Luis at 56 percent. 
Snowpack statewide is at 27 percent of normal.
    I mentioned how people are suffering from it. I also want 
to mention that wildlife and refuges are suffering, too. The 
fall trawl surveys showed record low numbers for Delta smelt. 
Low water flows and higher than normal water temperatures have 
killed off many endangered winter run salmon eggs and fries. 
Habitat for migratory birds has shrunk dramatically. This 
weekend's storm flows are expected to decrease quickly.
    Until we see the next storm, if we see one at all, the 
first question is, what do you think you can do to ensure the 
maximum amount of water is captured and stored for human as 
well as environmental use?
    Mr. Lopez. Thank you, Senator. I think the best thing that 
we can do is the continuing coordination with the regulatory 
agencies, that is, the fish agencies, Fish and Wildlife 
Service, National Marine Fisheries Service and EPA.
    Oftentimes, those regulations, be they either biological 
opinions or water quality issues, are really what is going to 
constrain our ability to capture some of those flows when they 
are happening.
    We are, as you know, in very, very close daily coordination 
with them. And I think that we have been trying to maximize 
flexibilities, in terms of how much we are able to take. We are 
monitoring the fish on a real-time basis to make sure we are 
not reaching critical take limits. And we are adjusting the 
pumping daily to keep all that going.
    We continue to have challenges, as you know, with water 
hyacinth that are blocking the CVP pumping facility. We are 
working with a number of irrigation districts, the State and 
others. They are lending us resources and manpower to try to 
deal with those issues as well.
    So we will continue to work in close coordination with all 
the interested entities. Additionally, I think another key 
element is that we continue to do all of what we are doing with 
complete transparency. That is, the people who depend on us for 
their water supply need to know why we are making the decisions 
we are making and need to have confidence that they are well-
reasoned. We are also trying to make sure that we are 
coordinating with Congress and making sure that you know what 
is going on, as well.
    These are all things that we will continue to do.

                        CALFED STORAGE PROJECTS

    Senator Feinstein. Right. As you know, I'm very 
disappointed. I know NMFS and Fish and Wildlife worked on a 
plan, along with your agency, and the plan was turned down by 
the director of the State board. I understand there is going to 
be an appeal to the full board. I am very disappointed at that 
action. So hopefully, we can reverse it. We'll see.
    Last year, the State's voters voted overwhelmingly to 
approve a $7.5 billion water bond, which includes $2.7 billion 
for water storage. To determine whether that money can be 
applied to one or more of the CALFED storage projects, the 
State must know whether the projects are feasible or not by 
2016.
    This is a very high priority for me, and I would like to 
run through the scheduled completion dates for each of the 
projects, and you let me know whether the timeline has changed. 
And if yes, what is the completion date to which you can commit 
Reclamation? It is my understanding that we submitted this to 
you so that you won't be blindsided by it.
    Shasta Dam raise? The final documents were originally 
scheduled to be released in either December 2014 or January 
2015. What is the final completion date for the final 
feasibility study and final environmental impact statement?
    Mr. Lopez. Senator, these reports are undergoing the final 
executive review right now. From our perspective, the technical 
work has been completed. They are getting their final review, 
and we hope that they will be available to you soon. But I 
can't speak to the exact timeframe.
    Senator Feinstein. Well, will it be 1 month, 2 months, 6 
months, or 6 years? It has been 10 years so far.
    Mr. Lopez. Senator, I think we are very, very close.
    Senator Feinstein. Okay. I guess I will now know what you 
mean by very, very close. You are new. We'll see.
    Temperance Flat, I was told last year that the final study 
and EIS will be ready by July of this year. Are they still on 
target to be delivered in July of this year?
    Mr. Lopez. Senator, I think my response is going to be 
similar to my last one. I think that we are on track. 
Reclamation is on track to complete the technical work by July, 
and then it will require some time to complete Executive 
Review. The timeframe for that review to be completed, I am not 
certain how long that will take.
    Senator Feinstein. Okay. But you are saying that the 
technical work will be completed by July?
    Mr. Lopez. Senator, I think we are on track to meet that 
deadline.
    Senator Feinstein. Okay. Sites Reservoir, I understand the 
bureau is working with the local joint powers authority, with 
whom I just met a few days ago and was very impressed with what 
they are putting together, to complete a project management 
plan by the end of this month that would establish the 
remainder of the feasibility study schedule.
    Is delivery of the project management plan on schedule?
    Mr. Lopez. Senator, as you speak, the Joint Powers 
Authority met with us, as well. They are very engaged in 
getting their piece of this puzzle put together, and we are 
working with them on a Project Management Plan. If we can bring 
that to fruition, I think we will remain on schedule for the 
technical work.
    What we are trying to do with all these studies is do them 
sequentially, that is, Shasta first, then Temperance Flat, then 
Sites, such that we don't spread ourselves so thin that none of 
them move ahead.
    We think we are on course to get to that endpoint and stay 
on schedule, so that the decision can be made about this 
reservoir as well.
    Senator Feinstein. Sites, although it is the most 
expensive, may just well turn out to be the best, because it 
produces the most, although it is expensive. But if I 
understood the joint powers agreement, they are going to 
actively participate in the financing and are trying now to 
raise money.
    So I think if it is has a reasonable cost-benefit, and if 
the feasibility is within a reasonable amount, I think that is 
a very important reservoir to take a look at.
    Los Vaqueros Phase 2 expansion. The first phase of 
expansion was completed in 2012, and the locals are 
contemplating a second expansion phase. Does Reclamation have 
any information on the expected timeframe for a decision to be 
made about Phase 2 work and the anticipated completion 
timeline?
    Mr. Lopez. Senator, I do not have a timeline for that one. 
I would like to supplement my answer.
    [The information follows:]

    Regarding the San Luis Low Point Improvement Project, including a 
dam raise alternative, is scheduled for final reports in December 2017. 
Engineering analysis for the Safety of Dams (SOD) Corrective Action 
Study is in progress. Seismic and constructability analyses are 
scheduled for completion in 2015. This project relies on information 
being developed via the SOD program to ensure a dam raise alternative 
also resolves the potential seismic risk.
    We had considered accelerating the schedule, but that effectively 
eliminated the economies that could be achieved by addressing the 
seismic issue in conjunction with the low point problem and other water 
supply reliability issues. The point of the feasibility study is to 
identify the economies that could be achieved by combining the seismic, 
low point, and water supply reliability aspects, and we do not have any 
specific details. The primary economy is gained from allocating the 
cost of the dam raise among numerous purposes.

    Senator Feinstein. Yes, would you? I will mark that down.
    And last, San Luis Reservoir. An initial appraisal study 
was completed in December 2013. Do you have an estimate for 
when the draft and final feasibility studies will be completed?
    Mr. Lopez. I was informed that we are on track to have a 
draft by the summer of next year, the summer of 2016, with the 
target of having a final in the fall of 2016.
    Senator Feinstein. Isn't San Luis the one that doesn't take 
very much? It has to undergo earthquake repair?
    Mr. Lopez. I believe that is correct, Senator.
    Senator Feinstein. So if I understand this, if the work 
could be done when the earthquake repair is done, the amount is 
not that great for a prudent raise. It is not a huge raise, but 
it is a raise that could be very helpful. And as I understood 
it, it costs in the millions, not the billions, low millions.
    Mr. Lopez. Senator, what you are describing I believe is 
correct, that if we could do both of these at the same time, we 
should gain some economies. I don't have at my fingertips all 
the details about it though.
    Senator Feinstein. Okay. Perhaps you would.
    [The information follows:]

    Reclamation and Contra Costa Water District are developing a 
Project Management Plan to identify the tasks, schedule, and budget 
necessary to complete a feasibility report and environmental documents 
for the next phase. Reclamation will need a nonfederal cost share 
partner to implement the Project Management Plan.

    Senator Feinstein. And I thank you for the water hyacinth. 
I have never seen anything quite like the photos that I have 
seen of that mass that has grown.
    I gather this is all imported, the hyacinth is not native. 
Is that correct?
    Mr. Lopez. Senator, I understand that it is a species that 
has been introduced into the area. I don't know that from study 
of my own. But I have been told that it probably came over on 
the ballast of ships into the area. But it is, certainly, 
established now.
    Senator Feinstein. Alright.
    Well, we had a very good meeting, and I look forward to 
working with you, and I think getting those feasibility studies 
done, as I said, it has been 10 years. It really has. And what 
is emerging I think is very interesting as to what looks like 
the most doable.
    You and I both talked to that joint venture, and it was 
very impressive. And to date, I know of no real opposition to 
it. So if the Sites numbers could get done, that would be very 
much appreciated, quickly.
    Mr. Lopez. Senator, we understand the importance of moving 
all of these forward, particularly last year and this year are 
demonstrating the importance of storage. Obviously, the quicker 
we can get all of these answers done, the better for all of us.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. Thanks, commissioners. Thank you very 
much, ladies and gentlemen.
    As Senator Alexander stated, the hearing record will remain 
open for 10 days. Members can submit additional information for 
the record within that time, if they would like.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Thad Cochran
                 federal flood risk management standard
    Question. Please identify any non-government organizations or 
individuals that had any role whatsoever in composing, editing, 
drafting, reviewing or developing any part of the FFRMS, the draft 
version of the Implementing Guidelines published in a Federal Register 
Notice on February 5, 2015, pursuant to EO 13690. Identify the 
individuals, their organizations, their roles in the process, including 
any individuals or organizations that worked through a contractual 
relationship with any office, agency or department of the Executive 
Branch.
    Answer. All activities associated with the FFRMS and its 
Implementing Guidelines were facilitated through an interagency process 
as part of the Mitigation Framework Leadership Group (MiTFLG). The 
membership of this group is listed on the Federal Emergency Management 
Agency's (FEMA) Web site.
    Question. Please identify the Governors, mayors, and other 
stakeholders from whom input was solicited prior to the establishment 
of the new FFRMS. Include the dates input was solicited, the dates any 
response or input was provided, and a summary of any input and 
responses that were considered in the development of the FFRMS.
    Answer. The Corps was not involved in the process of soliciting the 
views of Governors, mayors, or other stakeholders on the standard, and 
as a result, cannot offer any comments on how this process was designed 
and/or implemented.
    Question. Please provide a detailed summary of the activities of 
the Mitigation Framework Leadership Group since its inception relating 
to the development of the FFRMS, including a list of Federal members. 
Also provide a list of non-Federal members, including State, local and 
tribal governments, private sector and non-government organizations, 
and include a summary of their involvement in the development of the 
FFRMS and the dates such involvement occurred.
    Answer. FEMA, who serves as the chair of the MitFLG, will be in the 
best position to provide detailed information about its membership and 
associated activities supporting the development of the FFRMS. Also, 
the membership of this group is listed on FEMA's Web site.
    Question. Consistent with Executive Orders 13563 and 12866, please 
detail the methods used in determining the costs, benefits or 
scientific rationale of the FFRMS prior to its issuance, and provide 
the results of any such analyses.
    Answer. EO 13690 amends existing EO 11988 decisionmaking processes 
for agencies to follow when conducting Federal actions in a floodplain. 
Consideration of alternatives for determining the area where agencies 
need to apply the existing EO 11988 decisionmaking process was 
accomplished through an interagency process facilitated by the MitFLG. 
Recommended options for assessing alternatives for Federal actions in 
floodplains are consistent with projected scenarios for sea-level rise, 
and are consistent with findings and recommendations put forth in the 
recently released North Atlantic Coast Comprehensive Study, prepared by 
the Corps.
    Question. Please provide a detailed accounting of any activities to 
engage the public and their representatives in Congress in the 
development of the FFRMS prior to January 30, 2015, not otherwise 
addressed herein.
    Answer. As previously stated, the Corps was not involved in the 
process of soliciting the views of stakeholders on the standard, and as 
a result, cannot offer any comments on how this process was designed 
and/or implemented. Currently, the MiTFLG is soliciting public comments 
on the interagency Implementing Guidelines that could inform future 
revisions to the FFRMS as part of its annual review as required in 
Section 4(b) of EO 13690. In the months ahead, the Corps will seek 
public dialogue as the agency develops its Implementing Guidance.
    Question. Please provide a detailed accounting of any funds 
expended to support the activities of the Water Resources Council, 
including the source of all such funds. Identify any Executive Branch 
personnel, including offices, departments, and agencies, utilized to 
support the activities of the Water Resources Council. Also include the 
dates any meetings of the Water Resources Council were held, attendance 
at such meetings, and whether there was any public notice of any 
meetings.
    Answer. Executive Order 13690 establishes a Federal flood risk 
management standard, a flexible framework to increase resilience 
against flooding and help preserve the natural values of floodplains. 
It also establishes a process for further soliciting and considering 
public input, including from Governors, mayors, and other stakeholders, 
prior to implementing this standard. Executive Order 13690 amends 
Executive Order 11988. It sets up a process under which the Mitigation 
Framework Leadership Group, after reviewing the public comments, will 
provide recommendations to the Water Resources Council. The Water 
Resources Council would then provide guidance to agencies on the 
implementation of Executive Order 11988, as amended, consistent with 
the Federal risk management standard.
    The President issued Executive Order 13690 on January 30, 2015. The 
Army Corps of Engineers will be involved in this process through the 
Mitigation Leadership Framework Group, as a member of the Water 
Resources Council, and as an implementing agency. The Army Corps of 
Engineers will be available to participate in this process, as 
appropriate, within its existing resource levels.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
              kentucky lock project on the tennessee river
    Question. What is the estimated completion date for the Kentucky 
Lock project?
    Answer. The completion date could depend on a range of factors, 
including the availability of funding. At this point, the earliest that 
the Corps estimates that it would be able to complete physical 
construction would be in calendar year 2022.
    Question. What are the annual funding levels assumed for this 
estimated completion date?
    Answer. The capability estimate for each study or project is the 
U.S. Army Corps of Engineers estimate for the most that it could 
obligate efficiently during the fiscal year for that study or project. 
However, each capability estimate is made without reference to the 
availability of manpower, equipment, and other resources across the 
Army Civil Works program, so the sum of the capability estimates 
exceeds the amount that the Corps actually could obligate in a single 
fiscal year. The Budget allocates funding among studies and projects on 
a performance basis in a manner that will enable the Corps to use that 
funding effectively. Consequently, while the Corps could obligate 
additional funds for some studies and projects, offsetting reductions 
within the Army Civil Works program would be required to maintain 
overall budgetary objectives.
    The funding stream below includes inflation. However, it must be 
noted that funding for Kentucky Lock would be considered, along with 
all other funding requirements for projects throughout the Nation.
  Fiscal Year 2015--$15.0 million
  Fiscal Year 2016--$50.6 million
  Fiscal Year 2017--$51.7 million
  Fiscal Year 2018--$50.5 million
  Fiscal Year 2019--$69.0 million
  Fiscal Year 2020--$95.2 million
  Fiscal Year 2021--$85.1 million
  Fiscal Year 2022--$28.8 million
  Fiscal year 2023--$0.8 million
    Question. What is the remaining benefit/remaining cost ratio for 
the Kentucky Lock project?
    Answer. The benefits and the costs of the project need to be 
updated and therefore a current remaining benefit/remaining cost ratio 
is not available.
    Question. Does the cost to complete the Kentucky Lock project 
increase annually as it remains in ``caretaker'' status?
    Answer. In real terms, the cost to complete the project should not 
increase.
                     fiscal year 2015 workplan/iwtf
    Question. The fiscal year 2015 USACE work plan includes $6 M in 
unobligated funding. Does the USACE intend to use this funding, and if 
so, how?
    Answer. Yes. These funds have not yet been allocated because a 
useful increment of work has not yet been identified for those funds. 
The remaining funds will be allocated coincident with identifying a 
useful increment or increments of work for those funds.
                  section 1035 wrrda, floating cabins
    Question. It is my understanding the USACE is currently developing 
health and safety guidance regarding Sec. 1035 of the Water Resources 
Reform and Development Act of 2014 (Public Law 113-121). I am told that 
your agency has committed to considering input from interested parties 
on this health and safety guidance prior to its finalization.
    Will there be an opportunity for interested parties to view a draft 
proposal of the guidance in an effort to provide comment prior to the 
finalization of this guidance? If so, is there a date when stakeholders 
may expect a draft proposal to be made available for review? If not, 
please explain why stakeholders will not have the opportunity to 
provide comment on this guidance.
    Answer. In the fall of 2014, the Corps held a series of three 
listening sessions for government entities and the public to learn 
about and/or express their concerns or issues on any section of WRRDA 
2014. Afterwards, the Corps extended the offer to accept, consider, and 
address any concerns of marina operators or other constituents, but no 
comments were provided to the Corps.
    The Corps is in the final stages of preparing implementation 
guidance that is within the parameters of Section 1035 of WRRDA 2014. 
Once approved by the Assistant Secretary of the Army for Civil Works, 
the policy will be released to the public and to the Nashville District 
for implementation. In addition, the Nashville District will notify 
applicable marina operators of the policy and distribute it 
accordingly. Marina operators will also be extended the opportunity to 
meet with the Project Manager and any other District personnel 
concerning questions and direction on submitting requests to expand the 
marina outgrant to include floating cabins and/or concerning new marina 
proposals to include floating cabins.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                     continuing authorities program
    Question. At the subcommittee hearing, I asked about funding for 
the Continuing Authorities Program, specifically Sections 103 and 107. 
These sections have not received much funding in recent years; in fact, 
the Corps has not included them in the budget since 2011, although the 
appropriations process has put money into those accounts.
    What are the current unobligated balances of those accounts?
    Answer. As of January 31, 2015, Section 103 had $8.63 million in 
unobligated prior-year funds and $1.25 million in fiscal year 2015 
funds, for an unobligated total of $9.88 million. Of this, $4.61 
million is on projects and planned for obligation in fiscal year 2015 
and fiscal year 2016, and $5.27 million is being held in Headquarters 
pending execution of cost sharing agreements.
    Section 107 had $7.08 million in unobligated prior-year funds and 
$2.35 million in fiscal year 2015 funds, for an unobligated total of 
$9.43 million. Of this, $4.09 million is on projects and planned for 
obligation in fiscal year 2015 and fiscal year 2016, and $5.34 million 
is being held in Headquarters pending execution of cost sharing 
agreements.
    Question. How does the Corps plan to fund them going forward?
    Answer. The available balances will be used to complete useful 
increments of work, including completion of ongoing projects and 
initiation of additional projects if affordable.
    Question. Why are the funds not being used?
    Answer. The funding in the sections either has been allocated to 
projects or is being held in Headquarters pending execution of cost 
sharing agreements.
    Question. Can the small, rural communities of Alaska begin 
feasibility studies or general investigations using funds from 103 or 
107?
    Answer. Based on guidance from Congress, new starts are allowed in 
CAP where the Corps has completed a favorable affordability analysis. 
The CAP affordability analysis is looked at over a 3 year period and 
takes into account the anticipated funding, capability cost of active 
projects, less attrition, and potential cost of new starts, less 
attrition. Based on the cost of ongoing feasibility work, the cost of 
scheduled construction for fiscal year 2016, and the potential future 
costs of other ongoing projects (even after allowing for attrition as 
some projects are discontinued), new starts in Section 103 and 107 do 
not appear affordable at this time. For instance, in Section 103 there 
are 3 projects with pending Project Partnership Agreements (PPAs) and a 
total need of $7.2 million in Federal funds for construction. In 
Section 107 there are 4 projects with pending PPAs and a total need of 
$10 million in Federal funds for construction. The Corps will re-
evaluate affordability on a quarterly basis and, when possible, 
consider additional projects.
                         arctic deep draft port
    Question. I am enthusiastic about the release of the Corps' Draft 
Report regarding the Deep Draft Arctic Port System Study. This is a 
plan to build much needed infrastructure in the Arctic that will help 
the people of Alaska lower their cost of living, drive the local and 
State economies, and allow for a faster response in the event of an oil 
spill in the region.
    Can you please provide me with a detailed plan for how this project 
will proceed?
    Answer. Upon completion of public, technical, legal, policy and 
independent external peer reviews, the next step would be for the 
Arctic Deep Draft study team to develop responses to comments submitted 
and modify the recommended plan as appropriate.
    Question. What is the estimated timeline for the Review Board 
Hearing and Chief's Report?
    Answer. The Civil Works Review Board is currently scheduled for the 
first quarter of fiscal year 2016. Upon completion of a successful 
Civil Works Review Board and State and Agency Review of the project, 
the final feasibility report will be forwarded to the Chief of 
Engineers for review and approval.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                south san francisco bay shoreline study
    Question. Can you tell me how you plan to finish the Chief's Report 
by December 2015, as promised, without Federal funding in the fiscal 
year 2015 Work Plan and in the fiscal year 2016 Budget?
    Answer. We are considering all available options for completing 
this report.
    Question. If there are unallocated funds in the fiscal year 2015 
Work Plan that can be applied toward the study, can you commit to me 
that you will make the required sums available so that the study will 
stay on schedule?
    Answer. It is premature to make this commitment at this time as we 
are still developing the fiscal year 2015 Work Plan. However, our goal 
is to keep this study on an efficient schedule.
    Question. Can you commit to me that the Chief's Report will in fact 
be done by December 2015 with no further delays?
    Answer. Our goal is to complete the Chief's Report by the end 2015 
if there are not any unforeseen issues.
                    napa river flood control project
    Question. The Napa River Flood Control Project was provided funding 
in fiscal year 2014 to complete the bypass through the downtown area 
thereby capturing a majority of the project benefits. However, it has 
recently been determined that this work that was committed to in fiscal 
year 2014 will cost more than was initially anticipated and additional 
funds will be required. It would appear that sufficient funds remain 
unallocated that could be used for this purpose.
    Why were these funds not included in the fiscal year 2015 work 
plan?
    Answer. I became aware of the cost increase to complete this final 
phase late in the process of developing the work plan and am still 
gathering information regarding the scope and extent of the additional 
funds needed to complete this project that was previously funded to 
completion in fiscal year 2014.
                           california drought
    Question. What is the Corps doing to help with drought conditions 
in California?
    Answer. First, the Corps implemented temporary deviations to 
operations at Whittier and Prado Dams during the drought which has 
allowed the maximum capture of over 22,000 acre feet of water. Other 
deviation requests will likely be forthcoming.
    Second, the California Department of Water Resources has been 
meeting with the Corps about permits for salinity barriers in the 
Delta. The Corps expects additional permit requests for other work, 
including pumps, siphons, wells and pipe extensions.
    Third, the Corps is engaged with other Federal, State and local 
agencies to anticipate and assist in providing drought responses. 
Regionally, the Corps is participating in forums conducted by the 
California Office of Emergency Services, the lead State agency, 
regional water planning bodies and directly with project partners.
    Fourth, the Corps is providing technical assistance to local 
communities. For example, the Corps provided technical assistance to 
Redwood Valley Water District to place a temporary floating pump 
platform in Lake Mendocino that will allow continued water withdrawal 
if the lake level falls below the permanent intake.
    The Corps remains engaged with the California Drought Task Forces 
and is prepared to immediately act in processing deviations, regulatory 
permits and emergency water assistance requests within existing 
authorities. To improve longer-term drought resiliency, the Corps is 
working with the National Weather Service on improving forecast-based 
decision parameters for reservoir operations.
    Question. Are there legislative or institutional barriers that 
hinder the Corps in assisting with drought mitigation?
    Answer. The Army Civil Works program's actions reflect its 
authorities. In a drought, for example, the Corps may be able to take 
steps to change project operations at a multi-purpose dam that includes 
water supply as an ancillary project purpose. In some cases, the Corps 
may also be able to provide certain emergency assistance under Public 
Law 84-99.
                     harbor maintenance trust fund
    Question. It is my understanding that your fiscal year 2016 request 
for funding for activities that are reimbursed from the Harbor 
Maintenance Trust Fund is $915 million, exactly the same as your fiscal 
year 2015 request.
    As a percentage of the eligible work, what is the percentage that 
the Administration budgeted?
    Answer. The level of Federal spending to support harbor maintenance 
and related work in the Budget reflects consideration for the economic 
and safety return of these investments, as well as a comparison with 
other potential uses of the available funds. The fiscal year 2016 
Budget includes funding for about one-third of the potential eligible 
work.
    Question. What costs to the economy are associated with the 
Administration's request?
    Answer. Generally, the Corps considers costs and benefits in 
recommending which work to fund. However, the Corps does not track 
costs to the broader economy for the operation and maintenance work 
that it performs, or does not perform.
    Question. What types of benefits are not realized?
    Answer. Harbor maintenance and its benefits vary by project. 
Generally, the amount recommended in the Budget has a higher return 
than other potential work. The benefits are of the same type, but 
diminish with each added increment of funding. For example, more 
funding could, in some cases, enable some of the vessels that use a 
port to carry more cargo at high tide. At the current funding level, 
they may need to wait for a low tide, when fully loaded. On the other 
hand, regardless of the level of harbor maintenance, many ships may not 
be fully loaded, and many others--due to factors such as their size, 
and the density of their cargo--may be able to use it even when fully 
loaded. In deciding how much funding to recommend, the Corps would 
consider how many of the vessels that use that port are affected by the 
current channel condition, based on actual usage patterns. The choice 
may involve, for example, dredging one foot more in depth in certain 
places, or two more feet in depth there. The first foot of additional 
depth could have enough of an impact to solve the basic concern, but 
not address it fully for every ship. In that case, the Budget might 
fund the first increment of work but not the second. Finally, the port 
can always decide to provide its funds to enable the Corps to perform 
more work.
    Most of the harbor maintenance work that the Corps performs 
involves maintenance dredging. The Corps also performs other work with 
these funds, such as operation and maintenance of coastal navigation 
locks, construction and maintenance of dredged material placement site, 
and repairs on jetties and breakwaters to maintain their effectiveness.
    Question. How is it rational to be collecting a tax for the purpose 
of maintaining harbors, yet not using it for that purpose?
    Answer. Federal funding for maintenance dredging and related work 
at our coastal ports should not be based on the level of the harbor 
maintenance tax receipts. It should reflect consideration for the 
economic and safety return of each investment, as well as a comparison 
with other potential uses of the available funds.
    Question. What was the total of the most recent amount of 
collections from the HMT?
    Answer. fiscal year 2014 collections included Harbor Maintenance 
Tax receipts of $1.51 billion, plus $107 million in interest, for a 
total income of $1.62 billion.
    Question. What is the fiscal year 2016 target funding level for the 
HMT according to the 2014 WRRDA?
    Answer. Section 2101(a) of WRRDA 2014 identifies a level of 
resources that is the target total budget resources for each fiscal 
year. For fiscal year 2016, this level is $1.254 billion.
    Question. For fiscal year 2015, Congress provided $1.1 billion to 
be utilized for HMT activities. What types of activities were the funds 
used for?
    Answer. fiscal year 2015 Harbor Maintenance Trust Fund activities 
included maintenance dredging of harbors and channels; maintenance of 
breakwaters, jetties, bridges, and other coastal structures; operation 
and maintenance of coastal locks, dams, and other infrastructure; 
construction, operation and maintenance of dredged material placement 
sites; removal of floating debris and aquatic growth; project surveys; 
engineering and design and supervision and administration costs; 
conduct of studies and preparations of reports for dredged material 
management plans and major rehabilitations; environmental testing, 
monitoring, and mitigation; retention of the Corps hopper dredges 
WHEELER and McFARLAND in a Ready Reserve status; and collection of 
Harbor Maintenance Trust fund data.
    Question. How did these activities differ from those that the 
Administration budgeted for in fiscal year 2016?
    Answer. The fiscal year 2015 activities are very similar to those 
activities that were budgeted in fiscal year 2016.
    Question. Did the additional funds included in the fiscal year 2015 
work plan provide benefits to the national economy that might not have 
been realized if just the Administration request had been funded?
    Answer. The fiscal year 2015 work plan funds provided for 
additional maintenance of budgeted projects and maintenance of projects 
that were not included in the fiscal year 2015 Budget.
    Question. WRRDA 2014 provided a very elaborate and confusing 
distribution of funding for HMT related activities. Did you follow this 
distribution when allocating funds for the fiscal year 2015 work plan? 
What about for the fiscal year 2016 budget request?
    Answer. The Corps followed Congressional direction provided in 
Section 105 of the Energy and Water Development and Related Agencies 
Appropriations Act, 2015, Division D of the Consolidated Appropriations 
and Continuing Appropriations Act, 2015, when allocating funds in the 
fiscal year 2015 Work Plan. The fiscal year 2016 Budget takes into 
account some of the provisions of Section 2102 such as allocating not 
less than 10 percent of HMTF funds to emerging harbors and Great Lakes 
harbors.
    Question. In either case, were there sufficient funds to undertake 
all of the activities described in WRRDA 2014?
    Answer. Yes. However, we allocated the funds in the fiscal year 
2015 work plan and the fiscal year 2016 Budget based on a technical 
judgment by the Corps of the best use of those resources.
    Question. In the fiscal year 2016 budget request, how did the 
Administration account for the WRRDA direction when allocating funds in 
the budget request?
    Answer. The fiscal year 2016 Budget takes into account some of the 
provisions of Section 2102 such as allocating not less than 10 percent 
of HMTF funds to emerging harbors and Great Lakes harbors.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                         harbor maintenance tax
    Question. As we all recall, getting the long overdue Water 
Resources Reform and Development Act (WRRDA) over the finish line was 
an uphill battle. But ultimately the end result was an important step 
forward for the Army Corps, water and navigation infrastructure, and 
the Harbor Maintenance Tax (HMT). Specifically, Section 2102 of WRRDA 
allows eligible ports to use funds from the Harbor Maintenance Trust 
Fund (HMTF) for expanded uses beyond the traditional operations and 
maintenance uses. For many years some of the largest generators of HMT 
funds, like the Ports of Seattle and Tacoma in my home State of 
Washington, have received only minimal returns from the HMTF because 
they are deep-water ports that require little maintenance dredging. 
Additionally, Section 2106 of WRRDA allows the biggest HMT donor and 
energy ports to receive funding for expanded uses or for rebates to 
shippers and importers transporting cargo through their ports to 
partially compensate for the inequities in the current HMT system 
resulting in cargo diversion to non-U.S. ports.
    WRRDA was signed into law on June 10, 2014, about 8 months ago, and 
yet we still have not seen implementation guidance from the Army Corps 
on Sections 2102 or 2106. In fact, there is very little of WRRDA to be 
seen in the Army Corps' fiscal year 2015 Work Plan or the President's 
fiscal year 2016 budget request. Our ports need the new tools 
authorized in WRRDA to make infrastructure improvements and to remain 
competitive in the global maritime economy.
    Assistant Secretary Darcy, when can we expect the Army Corps' 
implementation guidelines to be completed? I ask that you complete this 
work quickly to ensure that the real changes Congress enacted can be 
included in the Army Corps fiscal year 2016 Work Plan. Furthermore, I 
urge the Army Corps to take steps to incorporate Sections 2102 and 2106 
in the fiscal year 2017 budget request.
    Answer. The Corps expects to complete implementation guidance for 
Sections 2102 and 2106 this spring.
                              mud mountain
    Question. Assistant Secretary Darcy, as we have previously 
discussed, the Mud Mountain Dam project is of great importance to me, 
my constituents, and Washington State. Appreciate the time and energy 
you have put into finding a path forward with NOAA to ensure the Army 
Corps meets both its Endangered Species Act and tribal trust 
responsibilities by replacing the diversion dam and building a new fish 
trap facility. But I must say I was deeply disappointed to learn that 
no funding was included in the Army Corps' fiscal year 2015 Work Plan 
or the President's fiscal year 2016 budget request to get design work 
underway. In a recent phone call with me, you stated that upon 
completion of the decision document the Army Corps would reprogram 
funding in fiscal year 2015 and fiscal year 2016 to begin the design 
phase.
    When can I expect the decision document to be completed? Further, I 
ask that you keep me apprised of any reprogramming requests made by the 
Army Corps to support this project.
    Answer. The decision document, in the form of a letter report, is 
scheduled to be submitted to my office for review this summer. I will 
keep you apprised of any related reprogramming actions.
    Question. Assistant Secretary Darcy, I need your commitment to work 
with me to achieve the aggressive 2020 timeline for a new and 
operational fish trap facility that the Army Corps has agreed to with 
NOAA in order to meet its Federal obligations and the needs of the 
community and ecosystem. Can I count on your commitment to this 
project?
    Answer. Yes, the Army remains committed to meeting the requirements 
described within the 2014 National Marine Fisheries Service (NMFS) Mud 
Mountain Dam (MMD) Biological Opinion (BiOp).
                         columbia river treaty
    Question. The Army Corps, through the Northwest Division, plays an 
important role implementing the Columbia River Treaty as a member of 
the U.S. Entity. Together with the Bonneville Power Administration 
(BPA), the Northwest Division engaged in a multi-year process with 
domestic stakeholders throughout the Pacific Northwest to reach a 
regional consensus to modernize the Columbia River Treaty. The 
``Regional Recommendation for the Future of the Columbia River Treaty 
after 2024'' was presented to the Administration and U.S. Department of 
State in December 2013. Since then the Army Corps, BPA, and several 
other Federal agencies have been participating in an Interagency Policy 
Committee (IPC) process to determine the parameters for negotiations 
with Canada based on the Regional Recommendation.
    Assistant Secretary Darcy, as a participant in the IPC process, can 
you share the timeline for formulating a consensus among the Federal 
partners on these parameters? Furthermore, are there any specific 
issues preventing the Federal partners from reaching consensus, 
completing the IPC process, and beginning negotiations with Canada?
    Answer. The IPC has been gathering more detailed information from 
affected Federal agencies. It is anticipated that the IPC will convene 
to formulate a recommendation to the Administration concerning the 
National Interest Determination, but we have not been provided a 
timeline for the IPC to formulate a recommendation. The U.S. entity is 
not aware of any specific issues preventing consensus.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                          funding for projects
    Question. The Metro East community has taken significant steps to 
ensure their share of funding for construction of the Metro East 
levees, showing strong commitment to the project.
    How many times has the Corps worked with a local sponsor who raised 
more than half the cost of a Federal project? If the Corps has worked 
with local sponsors who have raised more than the required match, 
please list those projects.
    Answer. With regard to construction of a Corps project, the 
authorized non-Federal share can sometimes exceed 50 percent of the 
cost. This is generally the case for hydropower infrastructure and for 
some coastal navigation projects. It may also occur where the 
authorized project is the locally preferred plan.
    A non-Federal sponsor may also provide more than the authorized 
non-Federal share of the costs under the authorities that allow the 
Corps to accept advanced or contributed funds. On this basis, local 
sponsors have paid more than 50 percent of the construction cost at 
least four times in recent years: for construction of the Milwaukee 
Harbor, WI; Miami Harbor, FL; Keystone Bridge, OK; and Sandbridge 
Beach, VA projects. In addition, the Corps recently executed an 
agreement for the non-Federal sponsor to advance all funds for 
construction of the Mile Point, FL, project. Details for these projects 
are included in the following table.

----------------------------------------------------------------------------------------------------------------
                                                                                                    Total non-
            Project name               Type of     Total project    Non-Federal     Additional     Federal funds
                                        funds          cost         cost share    funds provided     provided
----------------------------------------------------------------------------------------------------------------
Milwaukee Harbor, WI (Dredged        Contributed      $3,108,145      $1,709,480      $1,398,665      $3,108,145
 Material Disposal Facility).
Miami Harbor, FL...................  Advanced        181,553,000      71,553,000     110,000,000     181,553,000
Sandbridge Beach, VA...............  Contributed      15,819,000       5,537,000      10,282,000      15,819,000
Keystone Bridge, OK................  Contributed      15,000,000               0       6,000,000       6,000,000
Mile Point, FL.....................  Advanced         46,400,000      11,500,000      34,900,000      46,400,000
----------------------------------------------------------------------------------------------------------------

    Advanced funds in excess of the required non-Federal cost share are 
eligible for repayment, subject to the availability of appropriations. 
Contributed funds are not eligible for credit or repayment.
water resources reform and development act--consolidation of geographic 
                                projects
    Question. In Water Resources Reform and Development Act (WRRDA) 
2014, Congress instructed the Corps to allow for the consolidation of 
geographically consecutive flood risk reduction projects at the request 
of the local sponsor. The local sponsor of the Metro East Levee 
projects made that request on June 19, 2014, and the spring 
construction season is almost upon us.
    Has the Corps developed the guidance necessary to implement this 
section? If not, what are the specific challenges associated with 
developing the guidance?
    Answer. The Corps Headquarters is currently developing 
implementation guidance for Section 3012 of WRRDA 2014. Section 3012 of 
WRRDA is potentially applicable to many projects nationwide. 
Consequently, we need to carefully evaluate the complexities of 
implementing this provision, to ensure the guidance can be applied 
through a fair and consistent process nationwide.
water resources reform and development act--public/private partnerships
    Question. River commerce in America's heartland depends on the 
system of locks and dams on the Mississippi and Illinois Rivers. I was 
pleased to work with my colleagues in the 2007 reauthorization of the 
Water Resources Development Act to authorize modernization and 
expansion of the locks on these important Illinois waterways. These 
improvements make commerce more efficient and guard against 
catastrophic failures of current locks and dams as most of them reach 
80 or so years old. At the same time, with current project delivery 
schedules and the tight Federal budget, these improvements are not 
expected to be realized until 2090 by some estimates. With that in mind 
I introduced the Water Infrastructure Now Public Private Partnership 
Act or WIN-P3, a version of which was included in the Water Resources 
Reform and Development Act (WRRDA) 2014 (Section 5014). The pilot 
program would provide an opportunity for private financing to come to 
the table, accelerating project delivery of nationally significant 
water infrastructure projects like the locks and dams on the 
Mississippi and Illinois Rivers.
    Please provide a detailed timetable for the development of the 
Corps' Public Private Partnership Pilot Program, as authorized in 
Section 5014 of the Water Resources Reform and Development Act (WRRDA) 
2014.
    Answer. The Corps has been evaluating how it might participate in 
public private partnerships in order to support the development and 
implementation of water resources infrastructure With the passage of 
Section 5014 of WRRDA, the Corps has reviewed the law to determine how 
it can be applied in the best interest of the Nation. The first step 
includes identifying any policy and legal issues and then finding 
resolutions so that the Corps can enter into such partnerships.
                         mel price lock and dam
    Question. The Mel Price Dam is a 100 percent Federal project that 
has a major design flaw, which Army Corps studies have found this 
situation puts the levee at an ``unacceptable level of risk.'' Despite 
repeated calls to fix this problem the Corps has yet to finalize a 
design to shore up this critical stretch of levee. This delay is 
causing the Corps to spend millions each year in emergency measures to 
keep the levee from failing. The fiscal year 2014 Omnibus included both 
bill and report language directing the Army Corps to address the Mel 
Price issue, and yet there is little progress toward that goal.
    What is the status of selection of a third party to oversee the 
Corps on its work on the Mel Price Lock and Dam repair project in 
Southwestern Illinois, pursuant to the 2014 Omnibus?
    Answer. The language in the Bill is in regards to conducting an 
Independent External Peer Review (IEPR), which is a specific review 
activity performed by professionals who are external to the Corps, at a 
key point or points during the development of study reports and 
designs. The IEPR team provides comments on study and construction 
designs.
    The IEPR for the recommended design in the study report is 
currently planned to begin November 30, 2015 and complete January 15, 
2016. The Corps is currently discussing procedural options that could 
result in an earlier schedule for the IEPR. The study team continues to 
move forward with its efforts while options are being discussed.
           great lakes and mississippi river interbasin study
    Question. The Corps released its Great Lakes and Mississippi River 
Interbasin Study (GLMRIS) report in January 2014, which was intended to 
identify options to prevent the transfer of aquatic nuisance species 
between the Great Lakes and the Mississippi River Basins. It is my 
understanding that stakeholders have agreed on a series of short-term 
steps the Corps could take to decrease the risk of Asian carp moving 
into the Great Lakes.
    How have your conversations with Federal, State, and local agencies 
informed your next steps to prevent Asian carp from entering the Great 
Lakes?
    Answer. The Great Lakes Commission publicly identified 
implementation of measures to reduce the risk of Asian carp, which 
included modifications to the Brandon Road Lock and Dam. Additionally 
the Chicago Area Waterway System Advisory Committee, a group of 
governmental and non-governmental stakeholders representing commercial, 
navigation, and environmental interests, identified actions such as 
evaluating aquatic nuisance species controls at Brandon Road that can 
reduce the risk of Asian carp reaching the Great Lakes Basin.
    Question. Based on the evaluations presented in the GLMRIS Report 
and in response to stakeholder input, the Assistant Secretary of the 
Army for Civil Works directed the Corps to proceed with a formal 
evaluation of potential control technologies to be applied in the 
vicinity of the Brandon Road Lock and Dam, located near Joliet, 
Illinois.
    How do the proposed actions at Brandon Road fit into these efforts?
    Answer. See above response.
    Question. How will the Corps use the $500,000 requested in the 
fiscal year 2016 budget to implement these next steps?
    Answer. Fiscal year 2016 funds will be used with anticipated fiscal 
year 2015 carryover funds to continue the feasibility-level decision 
document for the Brandon Road project.
                     water of the u.s.--rulemaking
    Question. There has been a lot of confusion surrounding how the 
proposed ``Waters of the U.S.'' rule would affect agricultural 
communities, industry, and counties in my State.
    Would the new rule expand Clean Water Act jurisdiction in the State 
of Illinois? If so where?
    Answer. In the economic analysis that was done for the proposed 
rule, the Environmental Protection Agency (EPA) estimated a slight 
increase in jurisdictional waters nationally, of approximately 3 
percent compared to current practice. The EPA is preparing an updated 
economic analysis that will be published with any issued final rule 
which will also include an updated estimate of any change in 
jurisdiction under the Clean Water Act.
    Question. How would the Corps' determination of `jurisdictional 
waters' differ under the proposed rule from its practices under the 
2007 guidance?
    Answer. The agencies are proposing this rule to provide much needed 
clarity regarding which waters are and which waters are not 
jurisdictional under all sections and programs of the CWA. Our proposal 
is consistent with the best available science and the agencies' 
interpretation of the Supreme Court decisions; this proposed rule is 
aimed at improving efficiency in making jurisdictional determinations.
    The proposed rule retains much of the structure of the agencies' 
longstanding definition of ``waters of the United States,'' including 
many of the existing provisions that do not require revision in light 
of the SWANCC and Rapanos Supreme Court decisions or other bases for 
revision. Under the 2007 Rapanos guidance, updated in 2008, the 
agencies are required to make case-specific significant nexus 
determinations for certain categories of waters, including certain 
adjacent wetlands and tributaries. The proposed rule will improve 
clarity for regulators, stakeholders, and the regulated public. The 
proposal accomplishes this by defining certain categories of waters 
that under current policies require case-specific analyses, as 
jurisdictional by rule ``waters of the United States.'' A case-specific 
significant nexus determination would be required for waters that would 
not be jurisdictional by rule as long as those waters do not meet one 
of the exclusions included in the proposed rule. The proposed rule also 
adds clarity by providing definitions of ``tributary,'' 
``neighboring,'' and ``significant nexus.'' Certain types of waters or 
features are proposed to be excluded for the first time in rule 
language, including certain ditches, stock ponds created by excavating 
and/or diking dry land, and gullies, rills and non-wetland swales.
    Question. While the intent of the proposed rule is to provide 
clarity on the definition of ``waters of the U.S.'' (WoUS) subject to 
jurisdiction under the CWA, many of the actual methods used in a 
jurisdictional determination by the Corps are not expected to change. 
For example, the Corps would continue to use desktop and field-based 
tools, including remote sensing tools, existing methodology under the 
wetland delineation manual and accompanying regional supplements, and 
existing methodology for identifying the ordinary high water mark 
including the manuals developed for certain regions of the country. In 
addition, the options for requesting either an approved or preliminary 
jurisdictional determination would remain available to landowners.
    Would the proposed rule cause additional permitting requirements? 
If so, how?
    Answer. The proposed rule provides a definition of WoUS under the 
CWA and does not modify any statutory provisions or regulatory 
requirements associated with obtaining authorizations under section 404 
of the CWA. The increase in jurisdictional tributaries, adjacent 
waters, and other/isolated waters over current guidance would 
correspond to an increase in the number of permits required. However, 
there may be efficiencies gained as additional categories of waters 
will be determined to be jurisdictional or non-jurisdictional by rule, 
which previously required case-specific significant nexus 
determinations.
    The proposed rule does not modify or revoke any of the efficient 
permit mechanisms currently available, including general permits. In 
addition, the agencies' proposed rule would retain all existing Clean 
Water Act exemptions and exclusions, including those associated with 
certain activities such as normal farming, ranching and silviculture, 
and maintenance of irrigation and drainage ditches.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. I would really like to thank everybody 
for being here today. I very much appreciate your interest in 
this subject. So thank you for being here, and the subcommittee 
will stand adjourned.
    [Whereupon, at 4:43 p.m., Wednesday, February 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
